<html>
<title> - PREVENTING NUCLEAR TERRORISM: DOES DHS HAVE AN EFFECTIVE AND EFFICIENT NUCLEAR DETECTION STRATEGY?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







PREVENTING NUCLEAR TERRORISM: DOES DHS HAVE AN EFFECTIVE AND EFFICIENT 
                      NUCLEAR DETECTION STRATEGY?

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2012

                               __________

                           Serial No. 112-110

                               __________

       Printed for the use of the Committee on Homeland Security




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE

80-851 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Dr. Huban A. Gowadia, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. David C. Maurer, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    14
  Joint Prepared Statement with Gene Aloise......................    16
Mr. Vayl S. Oxford, National Security Executive Policy Advisor, 
  Pacific Northwest National Laboratory:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Appendix

Questions From Chairman Daniel E. Lungren for Huban A. Gowadia...    37
Questions From Ranking Member Yvette D. Clarke for Huban A. 
  Gowadia........................................................    40
Question From Ranking Member Yvette D. Clarke for Vayl S. Oxford.    43

 
PREVENTING NUCLEAR TERRORISM: DOES DHS HAVE AN EFFECTIVE AND EFFICIENT 
                      NUCLEAR DETECTION STRATEGY?

                              ----------                              


                        Thursday, July 26, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:59 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Walberg, Marino, and 
Clarke.
    Mr. Lungren. The Committee on Homeland Security, 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee is meeting today to examine the nuclear 
detection capabilities and strategy of the Department of 
Homeland Security. We have been advised that we are going to 
have votes starting at 10:30 or 10:45. It will go for 2 hours, 
so we are going to try and--we are going to have to get this 
in, in a very short period of time. So we will move as quickly 
as possible and hopefully get to questions.
    I will recognize myself for an abbreviated opening 
statement.
    First of all, let me thank those of you who are here and 
others who helped give us a very, very good classified briefing 
the other day. I think that was very helpful. I understand 
there were a lot of questions and answers that we got in the 
classified briefing that we couldn't have here, and I 
appreciate it. Just for the record, I think the attendance of 
the membership was an indication of how important this issue is 
and how well received the briefing was.
    Nuclear and radiological terrorism is my greatest fear for 
various reasons, which I articulate in my written statement, 
which will be made a part of the record. I would mention that 
it was a year ago in this hearing room that the Domestic 
Nuclear Detection Office informed us that it was canceling the 
costly Advanced Spectroscopic Portal Monitoring Program, known 
as ASP. Obviously that was a disappointment. The disappointment 
was expressed by the Department. It was shared, at least 
shared, by those of us on this subcommittee.
    A few months ago the Department provided its proposed path 
forward with the Global Nuclear Detection Architecture--GNDA--
implementation plan. We thank you for responding to our 
questions on that in the classified briefing that we had. I 
believe that this is a major accomplishment of your office by 
facilitating the interagency cooperation that is essential to 
the development of such a comprehensive architecture.
    In 2005 the President called for the establishment of the 
Domestic Nuclear Detection Office, DNDO, in the Department of 
Homeland Security. I responded by codifying it in our Safe Port 
Act of 2006, which we introduced to address the terrorist 
threats at our ports of entry. I believe the Safe Ports Act has 
served the Nation very well. The Department acknowledged at 
least the Department has met its goal of scanning 100 percent 
of the containerized cargo entering our country's highest-risk 
ports.
    Now that we have made progress in securing these ports it 
is important to expand our look into all potential pathways for 
nuclear smuggling whether by land, sea, or air. The Global 
Nuclear Detection Architecture is a response to that. We 
appreciate the work that you are doing on that.
    Unfortunately for the subcommittee, we have seen a 
recurring theme--and perhaps you can address that--that DHS is 
struggling to manage its technology acquisition processes. We 
hope that the situation will be quickly corrected, since it is 
a vital part of our global architecture strategy.
    I would like to commend DNDO on its Securing the Cities 
Program, which has successfully put radiation detector 
technology in the hands of first responders throughout the New 
York City area. It is, I believe, a model for Federal-State 
nuclear defense cooperation.
    I would leave the rest of my statement to be entered into 
the record so that we can proceed as quickly as possible to our 
panel.
    [The statement of Chairman Lungren follows:]
                Statement of Chairman Daniel E. Lungren
                             July 26, 2012
    Nuclear and radiological terrorism is my greatest fear. It would 
represent an unprecedented catastrophic event, causing enormous death, 
destruction, as well as long-term economic disruption. So it is 
critical that we continue our vigilance and oversight efforts in order 
to address this continuing threat. Our subcommittee hearing today will 
examine the current nuclear detection strategy of the Department of 
Homeland Security and assess whether that strategy is both effective 
and efficient in countering this threat.
    It was exactly 1 year ago today, in this very hearing room, that 
the Domestic Nuclear Detection Office informed me that it was 
cancelling its costly Advanced Spectroscopic Portal Monitoring Program, 
known as ``A-S-P''. After much promise, testing, and evaluation, the 
Department cancelled ASP without identifying a new technology 
replacement.
    Three months ago, the Department provided its proposed path forward 
with its Global Nuclear Detection Architecture (GNDA) ``Implementation 
Plan''. This was a major accomplishment of DNDO by facilitating the 
interagency cooperation that is essential to the development of such a 
comprehensive architecture. The plan provides for the first time, a 5-
year look-ahead of the needed capabilities for countering our nuclear 
and radiological threats. While the GNDA plan contains excellent 
procedures and policies to coordinate our Nation's nuclear defense 
efforts, it fails to identify the Department's priorities for acquiring 
its next generation of detection equipment.
    In 2005, the President called for the establishment of the Domestic 
Nuclear Detection Office (DNDO) in the Department of Homeland Security. 
I responded by codifying DNDO in the SAFE Port Act of 2006 which I 
introduced to address terrorist threats at our ports of entry. I 
believe that the SAFE Port Act has served this Nation very well. We are 
proud to acknowledge that the Department has met its goal of scanning 
100% of containerized cargo entering our country's highest-risk ports. 
Now that we have made progress in securing these ports, it is important 
that we expand our look into all potential pathways for nuclear 
smuggling, whether by land, sea, or air. In response, DNDO is 
developing, in coordination with the Departments of Defense, Energy, 
and State, the Global Nuclear Detection Architecture. DNDO is 
responsible for implementing the domestic portion of this architecture 
which focuses on the U.S. border as well as Federal, State, and local 
governments. It's also responsible for developing and acquiring 
radiation detection equipment to support the domestic efforts of DHS 
and other Federal agencies. A key partner in this domestic nuclear 
security effort is U.S. Customs and Border Protection, or ``C-B-P''. We 
are disappointed that CBP was unable to testify at today's hearing but 
we look forward to hearing from them on this topic at a later date.
    Today we will examine how the Global Nuclear Detection Architecture 
will detect and prevent a catastrophic nuclear terrorism event. 
Reliable and effective detection technology is critical to that effort. 
Unfortunately, in hearings before this subcommittee, we have seen a 
recurring theme: DHS struggling to manage its technology acquisition 
processes. We are hopeful that this situation will be quickly corrected 
since it is a vital part of our global architecture strategy.
    I would like to compliment DNDO on its Securing the Cities Program 
which has successfully put radiation detector technology in the hands 
of first responders throughout the New York City metropolitan area. 
Securing the Cities is a model for Federal-State nuclear defense 
cooperation. We are hopeful that DNDO can apply these positive lessons 
learned to its next generation of radiation portal monitors (RPM's) and 
other technologies.
    Dr. Gowadi, I welcome and congratulate you on your new Director 
position. It is a critical role and the centerpiece of our defense to 
the Nation's nuclear terrorist threat.
    I also look forward to hearing from GAO on the effectiveness and 
efficiency of DNDO's plans as well as one of our National laboratories 
on new and innovative ways to improve our radiation detection 
capability.
    I now recognize the gentle lady from New York, Ms. Clarke for her 
opening statement.

    Mr. Lungren. I would now recognize my Ranking Member, the 
gentle lady from New York, Ms. Clarke, for her opening 
statement.
    Ms. Clark. I thank you, Mr. Chairman. Thank you for holding 
this hearing today to discuss developments in the Domestic 
Nuclear Detection Office strategy and the Global Nuclear 
Detection Architecture.
    It has been said before, the enormous devastation that 
would result if terrorists used a nuclear weapon or nuclear 
material successfully requires us to do all we can do to 
prevent them from entering or moving through the United States. 
This subcommittee in its oversight capacity has held hearings 
starting in 2005 and continuing through 2012 regarding the 
development and implementation of the GNDA and in the decision-
making process that involves costly investments in it.
    The overarching issues include the balance between 
investment in near-term and long-term solutions for 
architecture gaps, the degree and efficiency of Federal agency 
coordination, the mechanism for studying agency investment 
priorities in the architecture, and efforts DNDO has undertaken 
to retain institutional knowledge regarding this sustained 
effort.
    In the policy and strategy documents of the GNDA the DNDO 
is responsible for developing the global strategy for nuclear 
detection, and each Federal agency that has a role in combating 
nuclear smuggling is responsible for implementing its own 
program. DNDO identified 73 Federal programs, which are 
primarily funded by DOD, DOE, and DHS that engage in 
radiological and nuclear detection activities.
    With the publication of an overall DNDO strategy 
development document and the release of the Global Nuclear 
Detection Architecture and the implementation plan, Congress 
will have a better idea of how to judge DNDO's policy, 
strategy, operations, tactics, and implementation.
    But we need to know about their R&D activities, their 
resource requests and their asset allegations. I know that I 
might sound like a broken record before the day is through, but 
from the very start of the ASP program, which was officially 
cancelled just 10 days ago, July 16. DNDO seemed to push 
acquisition decisions well before the technology had 
demonstrated that it could live up to its promise.
    On July 14, 2006, Secretary of Homeland Security Michael 
Chertoff, and then-director of DNDO, Mr. Oxford, one of our 
witnesses today, announced contract awards to three companies 
worth an estimated $1.2 billion to develop ASP, including the 
Raytheon Company from Massachusetts, the Thermal Electron 
Company from Santa Fe, New Mexico, and Canberra Industries from 
Connecticut.
    Both Secretary Chertoff and Oxford held a press conference 
to announce the billion-dollar contract awards just a few 
months after highly critical reviews of the ASP's ability by 
the GAO and the National Institute of Standards and Technology. 
I hope we don't see that kind of decision making again in DNDO.
    Within DNDO, policy and strategy have historically not been 
adequately translated into operations, tactics, and 
implementation. Overlapping missions, especially in the field 
of nuclear detection, worsened this. Since 2009, DNDO has made 
important changes under Secretary Napolitano, and made 
especially good progress in nuclear forensics. I hope that our 
Congressional oversight has had an effect, a positive one, in 
bringing to light decisions that cost the taxpayers a lot of 
money with little to show.
    In 2010, the Science and Technology Directorate requested 
$109 million for the transformational research and development, 
radiological and nuclear division. This research was to be 
transferred from DNDO to the Science and Technology 
Directorate, and the Democratic committee Members supported the 
transition of radiological and nuclear research away from DNDO 
into S&T.
    The committee, under then-Chairman Thompson, worked to make 
this transition happen and we believed that research and 
development and operations and procurement are best left to 
separate organizations in order to avoid obvious conflicts of 
interest.
    What I hope we are going to hear today is how DNDO's 
mission can be better defined. Some claim there is still 
confusion as to whether it is an end-to-end RDT&E and 
procurement entity for all things nuclear and radiological, a 
development entity or an operational entity, and the question 
whether there is an inherent conflict of interest when an 
agency is both an R&D workshop and a procurement platform.
    Let me finish with this thought, completely out of the 
policy arena. On the ground and every day our nuclear deterrent 
effort requires motivated and vigilant officers supplied with 
the best equipment and intelligence we can give them.
    Customs and Border Patrol officers working at our Nation's 
ports of entry have an extremely complex and difficult job. 
Thousands of decisions are made every day to clear a container 
or personal vehicle for transit into the United States, require 
further inspection, and even deny entry or interdict such a 
vehicle or person. That is the hard, cold, every-day reality of 
our mission to prevent this kind of violent nuclear attack. We 
must do our best.
    I look forward to hearing from our witnesses today.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                             July 26, 2012
    Mr. Chairman, thank you for holding this hearing to discuss 
developments in the Domestic Nuclear Detection Office Strategy, and the 
Global Nuclear Detection Architecture.
    It has been said before, the enormous devastation that would result 
if terrorists use a nuclear weapon or nuclear materials successfully, 
requires us to do all we can to prevent them from entering or moving 
through the United States.
    This subcommittee, in its oversight capacity, has held hearings 
starting in 2005, and continuing through 2012, regarding the 
development and implementation of the GNDA and in the decision-making 
process that involves costly investments in it.
    The overarching issues include the balance between investment in 
near-term and long-term solutions for architecture gaps, the degree and 
efficiency of Federal agency coordination, the mechanism for setting 
agency investment priorities in the architecture, and the efforts DNDO 
has undertaken to retain institutional knowledge regarding this 
sustained effort.
    In the policy and strategy documents of the GNDA, DNDO is 
responsible for developing the global strategy for nuclear detection, 
and each Federal agency that has a role in combating nuclear smuggling 
is responsible for implementing its own programs. DNDO identified 73 
Federal programs, which are primarily funded by DOD, DOE, and DHS that 
engage in radiological and nuclear detection activities.
    With the publication of an overall DNDO strategy document and the 
release of the Global Nuclear Detection Architecture and implementation 
plan, Congress will have a better idea of how to judge the DNDO's 
policy, strategy operations, tactics and implementation.
    But we need to know more about their R&D activities, their resource 
requests, and their asset allocations. And I know that I might sound 
like a broken record before the day is through, but from the very start 
of the ASP program which was officially cancelled just 10 days ago, 
July 16, DNDO seemed to push for acquisition decisions well before the 
technology had demonstrated that it could live up to its promise.
    On July 14, 2006, Secretary of Homeland Security Michael Chertoff 
and the then-Director of DNDO, Mr. Oxford, one of our witnesses today, 
announced contract awards to three companies worth an estimated $1.2 
billion to develop ASPs, including the Raytheon Company, from 
Massachusetts, the Thermo Electron Company from Santa Fe, New Mexico 
and Canberra Industries from Connecticut. Both Secretary Chertoff and 
Oxford held a press conference to announce the billion-dollar contract 
awards just a few months after highly critical reviews of the ASPs' 
abilities by the GAO and the National Institute of Standards and 
Technology (NIST).
    I hope we don't see that kind of decision making again in DNDO.
    Within DNDO, policy and strategy have, historically, not been 
adequately translated into operations, tactics, and implementation. 
Overlapping missions, especially in the field of nuclear detection, 
worsen this.
    Since 2009, DNDO has made important changes under Secretary 
Napolitano, and made especially good progress in nuclear forensics. And 
I hope that our Congressional oversight has had an effect, a positive 
one, in bringing to light decisions that cost the taxpayers a lot of 
money, with little to show.
    In 2010, the Science and Technology (S&T) Directorate requested 
$109.000 million for the Transformational Research and Development 
Radiological and Nuclear Division. This research was to be transferred 
from DNDO to the S&T Directorate,\1\ and the Democratic Committee 
Members supported the transition of radiological and nuclear research 
away from DNDO into S&T. The committee, under then-Chairman Thompson, 
worked to make this transition happen, and we believe that research and 
development, and operations and procurement, are best left to separate 
organizations in order to avoid the obvious conflict of interest.
---------------------------------------------------------------------------
    \1\ DHS fiscal year 2011 Budget in Brief, ICE 10-2647.000474 p. 
139.
    ------------
---------------------------------------------------------------------------
    What I hope we are going to hear today is how DNDO's mission can be 
better defined. Some claim there is still confusion as to whether it is 
an end-to-end RDT&E and procurement entity for all things nuclear/
radiological, a development entity, or an operational entity, and 
question whether there is an inherent conflict of interest when an 
agency is both an R&D workshop and a procurement platform.
    Let me finish with this thought, completely out of the policy 
arena. On the ground, and every day, our nuclear deterrence effort 
requires motivated and vigilant officers supplied with the best 
equipment and intelligence we can give them. Customs and Border Patrol 
officers working at our Nation's ports of entry have an extremely 
complex and difficult job.
    Thousands of decisions are made every day to clear a container or 
personal vehicle for transit into the United States, require further 
inspection, or even deny entry or interdict such a vehicle or person, 
and that is the hard, cold, everyday reality of our mission to prevent 
this kind of violent nuclear attack.
    We must do our best.
    I look forward to hearing from our witnesses today and with that, 
Mr. Chairman, I yield back.

    Mr. Lungren. The gentle lady yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 26, 2012
    Good morning, Mr. Chairman, and thank you for holding this hearing. 
I also want to thank the witnesses for their testimony today.
    Exactly 1 year ago, we had a similar hearing on our nuclear 
detection capabilities.
    As we continue to seek ways to resolve known vulnerabilities, the 
work of DNDO can play an important role in the security of our borders 
and ports of entry by assuring that radiological and nuclear materials 
are detected before they enter this country.
    Many DHS components contribute to meeting the Department's 
strategic goal of preventing unauthorized acquisition or use of 
chemical, biological, radiological, and nuclear materials and 
capabilities, but only DNDO has detection as a core mission.
    Since its creation, the Department has maintained existing 
programs, and established new programs dedicated to the detection of 
radiological and nuclear materials.
    These programs initially lacked a unified strategy that integrated 
their activities with the programs of other Federal departments.
    In 2010, the Department, in coordination with other Federal 
agencies, released a strategic plan for the global nuclear detection 
architecture that provided this unified strategy.
    It is my understanding that the strategy does not provide guidance 
to participating entities; leaves program level budgeting to the 
discretion of the component, and does not establish performance 
measures and benchmarks.
    It seems that without these elements, the strategy is not a road 
map to success and may well be a path to nowhere.
    I raise the need for these elements because I do not want DNDO to 
repeat the ASP fiasco. After several years, a few GAO reports, and $393 
million,\1\ DNDO has come to the conclusion that ASP is not a workable 
product.
---------------------------------------------------------------------------
    \1\ Government Accountability Office, Combating Nuclear Smuggling: 
DHS Has Developed a Strategic Plan for its Global Nuclear Detection 
Architecture, but Gaps Remain, GAO-11-869T, July 26, 2011.
---------------------------------------------------------------------------
    And while I commend you for accepting the truth, it is my 
understanding that this conclusion could have been reached much sooner 
and without the expenditure of millions of dollars if DNDO had talked 
to CBP and understood the needs of the product's end-user.
    I hope that the Global Nuclear Detection Architecture and strategy 
is an effort to revamp the process that allowed the ASP fiasco to 
occur.
    However, I cannot be assured that DNDO has learned from this 
experience without knowing that routine management tools like 
performance measures and benchmarks are in place.
    Hopefully, our witnesses today will tell us that DNDO has turned a 
corner and is not likely to repeat its unfortunate past.

    Mr. Lungren. We are pleased to have a distinguished panel 
of witnesses today for us on this important topic. Dr. Huban 
Gowadia is the acting director of the Domestic Nuclear 
Detection Office at the Department of Homeland Security. In 
this capacity, she oversees integration of the interagency 
efforts for technical nuclear detection and forensics, and 
directs research, development, evaluation, acquisition 
activities for the Department's radiological and nuclear 
detection technologies.
    Served most recently at DNDO as the deputy director. 
Previously served as the assistant director of DNDO's mission 
management directorate, where she was responsible for ensuring 
an effective link between user requirements, operational 
support, and technology development across the nuclear 
detection architecture.
    Mr. David Maurer is the director in the U.S. Government 
Accountability Offices, Homeland Security and Justice team, 
where he heads GAO's work reviewing DHS and DOJ management 
issues. His recent work in these areas include DHS management 
integration, the Quadrennial Homeland Security review, Secret 
Service financial management, DOJ grant management for the 
present system, and assessment of the technology for detecting 
explosives in the passenger rail environment.
    Mr. Vayl Oxford is the national security policy advisor at 
the Pacific Northwest National Laboratory. In this role he is 
responsible for working with the laboratory's leadership to 
guide the strategic direction and vision for National security 
issues.
    Prior to joining the Pacific Northwest National Laboratory, 
Mr. Oxford spent a short time in private industry after 35 
years of public service, combining time in the military and as 
a government civilian employee. He served at the Department of 
Homeland Security from October 2003 to January 2009, where he 
held positions of policy advisor to the under secretary of 
science and technology, acting director of Homeland Security 
Advanced Research Projects Agency, and as the first director of 
the Domestic Nuclear Detection Office.
    I am sorry we are under the time constraints that we have, 
but we are going to have a voting session of about 2 hours on 
the floor. So again, your written statements will be made a 
part of the record and we would ask you for a summarization of 
5 minutes of each of your points and then we will try and get 
as many questions possible.
    If you will please testify in the order in which I 
introduced you.

   STATEMENT OF HUBAN A. GOWADIA, ACTING DIRECTOR, DOMESTIC 
   NUCLEAR DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Ms. Gowadia. Good morning, Chairman Lungren, Ranking Member 
Clarke, and Mr. Walberg.
    Thank you so much for having us here today to discuss 
DNDO's progress in coordinating the Global Nuclear Detection 
Architecture, or GNDA, and implementing its domestic component.
    DNDO is a unique interagency organization with a singular 
focus on making nuclear terrorism a prohibitively difficult 
undertaking for our adversaries. On DO oversight, DNDO 
continues to build upon the concept of an interagency GNDA.
    As we strive to build an effective and efficient nuclear 
detection strategy, we acknowledge that ability to counter the 
nuclear threat is fundamentally based on the critical triad of 
intelligence, law enforcement, and technology.
    To maximize our ability to detect and interdict a nuclear 
threat, it is imperative that we apply these technologies in 
operations that are driven by intelligence indicators, and 
place them in the hands of the well-trained law enforcement and 
public safety personnel.
    To this end, we have steadily increased our collaboration 
with the intelligence community, and we continue to set the 
training standards and build curricula necessary to train 
front-line operators. We are now focusing on an architecture 
that is capable of surging in response to credible information 
that indicates an imminent threat to our National security. 
This means that nuclear detection capabilities must be robust, 
flexible, agile, and well-coordinated. Our multi-layered 
architecture will indicate partner assets and capabilities into 
a unified response.
    Following completion of the first-ever interagency GNDA 
strategic plan in December 2010, we worked with our DHS partner 
components to develop the DHS-GNDA implementation plan. This 
plan represents the next step in the development of an 
operational and coordinated capability to search for, detect, 
and interdict nuclear threats. As this plan illustrates, we are 
committed to balancing capabilities across the architecture, 
not just in any one pathway.
    Over the past decade DHS has made considerable progress in 
deploying systems at our land borders and seaports to scan 
cargo and vehicles for nuclear threats. Our on-going work with 
the U.S. Customs and Border Protection has resulted in the 
scanning of over 99 percent of all containerized cargo that 
enters our Nation at our seaports and via trucks at our land 
borders.
    DHS began deploying the current generation systems in 2003 
and many of these are now approaching 10 years of service in 
the field. While recent studies have shown that the service 
life of these systems may be significantly longer than 
originally anticipated, at DNDO we are proactively examining 
technical methods to improve their operation and capabilities 
and extend their service life. This includes efforts to ensure 
that alternative neutron detection technologies are now 
commercially available and large quantities of helium-3 will no 
longer be necessary for these systems.
    As we look beyond our land and seaports to implement a more 
balanced National architecture, we will need cost-effective 
detectors that can be widely deployed and detection systems 
that can search wide areas, even in the most challenging 
environments. Such challenges require new materials, such as 
lanthanum bromide, that can be applied in novel concepts of 
operation. Recently, we developed the next-generation 
radioisotope identification device which has improved 
algorithms and is based on this material, resulting in 
significantly superior performance.
    We worked closely with our partners to identify key 
operational requirements that drove the new system design, and 
now we have an easy to use light-based system that is more 
reliable and has lower maintenance costs due to its built-in 
calibration and diagnostics feature.
    To address the challenge of wide-area search, our long-
range radiation detection project seeks to advance technologies 
that detect, identify, and precisely locate radiation sources 
at stand-off distances. To allow for nuclear detection along 
our borders, DNDO is working on network detectors that 
integrate data from across multiple portable monitors with the 
goal overall system performance compared to a non-network 
system.
    DNDO is able to strengthen the security triad of 
intelligence, law enforcement, and technology because of our 
integrated and holistic approach to preventing nuclear threats 
through our detection and forensics efforts. Our disciplined 
and singular focus on nuclear counterterrorism is reinforced by 
our rigorous systems development process and anchored by the 
skills and knowledge of our interagency staff, scientists, 
engineers, current and former law enforcement and military 
personnel, intelligence professionals, and policy experts.
    Thank you again for this opportunity to discuss DNDO's 
efforts to protect our Nation from a nuclear threat. I would be 
happy to take your questions.
    [The statement of Ms. Gowadia follows:]
                 Prepared Statement of Huban A. Gowadia
                             July 26, 2012
    Good morning Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the subcommittee. As acting director of the 
Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO), I am pleased to testify today with my distinguished 
colleagues to discuss nuclear detection. My testimony today will focus 
on the DNDO's progress in coordinating the global nuclear detection 
architecture (GNDA) and implementing the domestic portion.
    DNDO is a unique interagency organization, with staff expertise in 
technical, law enforcement, military, and interagency issues, focused 
exclusively on preventing nuclear terrorism. Countering nuclear 
terrorism is a whole-of-Government challenge, and DNDO works with 
Federal, State, local, Tribal, territorial, international, and private-
sector partners to fulfill this mission. Working in coordination with 
partners from across the U.S. Government (USG), including DHS 
components, the Departments of Energy (DOE), State, Defense (DOD), 
Justice, the intelligence community, and the Nuclear Regulatory 
Commission, DNDO develops the global nuclear detection architecture 
(GNDA) and implements the domestic component of the architecture. DNDO 
also works with its partners to coordinate interagency efforts to 
develop technical nuclear detection capabilities, measure detector 
system performance, ensure effective response to detection alarms, 
integrate USG nuclear forensics efforts, and conduct transformational 
research and development for advanced detection and forensics 
technologies.
    DNDO continues to build upon the concept of an interagency GNDA. We 
are working with partners to build a flexible, multi-layered 
architecture that will strategically integrate Federal, State, local, 
territorial, and Tribal assets and capabilities into a unified response 
when intelligence or information indicates there may be a credible 
nuclear threat. The USG must be able to respond effectively to credible 
information that indicates an imminent threat to our National security, 
and, if necessary, surge all available resources in a coordinated 
manner. Since a surge relies on detection resources that are in place 
at the time, this places a premium on identifying what is needed to 
respond to threats and ensuring it will be available if needed. The USG 
strategy leverages the integrated efforts of Federal, State, local, 
territorial, and Tribal responders to perform nuclear detection in 
concentrated regions or areas when information indicates there may be a 
need for responsive search operations for preventive detection or 
interdiction. DNDO continues to develop new equipment and technology 
that is flexible and mobile, enhancing the ability of the USG to 
respond to radiological and nuclear threats.
                      dhs gnda implementation plan
    Building upon the interagency GNDA Strategic Plan, which we 
submitted to Congress in December of 2010, DNDO led the Department's 
development of the DHS GNDA Implementation Plan. This plan represents 
the next step in the development of the Department's operational and 
coordinated capability to respond to radiological and nuclear threats 
against the homeland. The planning team was made up of representatives 
from across DHS operational components and headquarters offices, as 
well as interagency representatives.
    The DHS GNDA Implementation Plan identifies specific DHS-led 
programs and activities that will support the mission, goals, and 
responsibilities detailed in the GNDA Strategic Plan.
    As requested by Congress, the plan also includes current resource 
planning information based on the Future Years Homeland Security 
Program.
    The GNDA will require constant review to account for changing 
threats, missions, and technology. Through this implementation planning 
process, DHS has developed metrics associated with GNDA Strategic Plan 
performance goals. These metrics define achievement and time lines for 
each performance goal.
        maintaining and enhancing capabilities at ports of entry
    Over the past decade, DHS has made considerable progress in 
deploying systems at our borders and seaports to scan cargo and 
vehicles for radiological and nuclear threats. Through the Radiation 
Portal Monitor (RPM) program, detection equipment is procured and 
installed at domestic ports of entry to scan containerized cargo for 
radiological and nuclear threats, addressing the requirements of the 
Security and Accountability For Every (SAFE) Port Act of 2006 (Pub. L. 
No. 109-347). Our on-going work with U.S. Customs and Border Protection 
(CBP) to facilitate container security has resulted in the scanning of 
over 99 percent of all incoming containerized cargo for radiological 
and nuclear threats entering via truck at our land borders and at our 
seaports, utilizing RPMs. RPMs, coupled with handheld radioisotope 
identification devices (RIIDs), are the workhorses of our on-going 
deployments.
    Scanning of containerized cargo at seaports of entry will continue, 
in accordance with SAFE Port Act requirements. However, given the 
current fiscal environment, DNDO and CBP, working together, will 
continue to work to balance risk reduction, effectiveness of 
radiological and nuclear scanning, flow and volume of commerce, and 
life-cycle costs when determining RPM deployment priorities.
Improvements to Current Generation RPMs
    We are looking ahead in anticipation of a future need for enhanced 
capabilities or new systems for scanning cargo at ports of entry. The 
RPM program began deployment of the current generation poly-vinyl 
toluene (PVT) RPMs in 2003 and many of these are approaching the 10-
year service life mark. While recent DNDO-funded studies have shown 
that the service life of PVT RPMs may be significantly longer than was 
previously anticipated, the oldest RPMs will eventually need to be 
replaced or refurbished. Given the very significant DHS investment in 
the RPM program, DNDO has been studying the issue of how to extend the 
usefulness of this investment and develop the system to its full 
potential. DNDO's PVT Improvement Program examines technical methods to 
improve the operations and capabilities of currently deployed PVT RPMs. 
DNDO plans to complete developmental testing and field validation 
testing of selected PVT improvement solutions in fiscal year 2013.
Next Generation Handheld Detectors
    Radioisotope Identification Devices (RIIDs) are used by law 
enforcement officers and technical experts during routine operations. 
To further improve operational nuclear detection capability, DNDO has 
led the development of a next-generation RIID. We worked closely with 
CBP, USCG, the TSA, and State and local operators, to identify key 
operational requirements that drove the design of the new system. Based 
on an enhanced detection material, lanthanum bromide, and improved 
algorithms, this new handheld technology is easy-to-use, lightweight, 
and more reliable, and because it has built in calibration and 
diagnostics, has a much lower annual maintenance cost. We are currently 
in the process of deploying these with CBP at POEs.
Advanced Spectroscopic Portals (ASP)
    Last year, my predecessor announced the Department's decision to 
cancel full-scale deployment of the ASP system for either primary or 
secondary scanning. At the recommendation of the Department's 
Acquisition Review Board, Secretary Napolitano directed DNDO and CBP to 
end the ASP program as originally conceived and to instead use hardware 
left over from the ASP program to collect spectroscopic data from 
operational environments that can be used to characterize future models 
and refine operational requirements. Based upon a careful review of 
needs and resources, DNDO is working with CBP, as well as State 
authorities, to determine locations for data collection purposes. The 
data gathered will be used for modeling and to refine requirements, 
especially in the areas of detecting special nuclear materials in the 
presence of masking, and for characterizing the effect of conveyance 
speed control on isotope identification.
          dndo acquisition and commercial engagement strategy
    Recognizing the important contributions and innovations of private 
industry, National laboratories, and academia, DNDO has evolved its 
acquisition focus from one that is predominantly fueled by a 
Government-funded, Government-managed development process to one that 
relies upon industry-led development. As such, all DNDO technology 
development programs now proceed with a ``commercial first'' approach--
engaging first with the private sector for solutions and only moving to 
a Government-sponsored and -managed development effort if necessary. 
This approach takes advantage of industry's innate flexibility and 
ability to rapidly improve technologies, leveraging industry-led 
innovation.
    This transition will also include a new approach at the systems 
level, in which strategic interfaces will be clearly defined in the 
detector/system architecture, allowing system upgrades without 
wholesale changes. We have shared the DNDO Acquisition and Commercial 
Engagement Strategy with industry through DHS's Private Sector Office 
to ensure the commercial sector remains aligned with DNDO's current 
development and acquisition approach. In some cases, shifting to 
commercial-based acquisitions will reduce the total time to test, 
acquire, and field technology.
    research and development to support and enhance the architecture
    Along with intelligence and law enforcement, technology is 
fundamental in our ability to detect nuclear threats. In recent years, 
there have been dramatic advancements in nuclear detection technology. 
Thirty years ago, identification of detected nuclear material required 
laboratory specialists and large, complicated equipment. Now, newer 
detection materials that can be integrated into mobile and human-
portable devices, coupled with advanced algorithms, allow for 
significantly improved operations. As a result, front-line responders 
and law enforcement officials now regularly use detection equipment to 
search for, find, and identify nuclear materials in the field. 
Technological advances in computing, communications, software, and 
hardware have also contributed to this revolution in nuclear detection 
technology.
    Despite these advancements, however, developing nuclear detection 
technology for homeland security applications is an inherently 
difficult technical task. The fundamental technical challenge for 
nuclear detection is one of distinguishing signal from noise. Sensors 
can detect radiation, but detection is limited by several factors, 
including speed, distance, shielding, and source strength. Compounding 
these challenges is the difficulty in distinguishing ever-present 
background radiation from radiation that poses a threat. Additionally, 
to mitigate risk across all pathways in the GNDA, detection 
technologies must be capable of operations in challenging environments, 
such as on the water and in rugged terrain between ports of entry.
    While DNDO's work to develop, evaluate, and deploy systems supports 
the on-going enhancement of the GNDA, significant technical challenges 
remain. These challenges include:
  <bullet> Cost-effective equipment with sufficient technical 
        performance to ensure widespread deployment;
  <bullet> Enhanced wide-area search capabilities in a variety of 
        scenarios to include urban and highly-cluttered environments;
  <bullet> Monitoring along challenging GNDA pathways, to include 
        scanning of general aviation and small maritime vessels, and 
        searching for nuclear threats between ports of entry; and
  <bullet> Detection of nuclear threats even when heavily shielded.
    Additionally, our programs must be able to reach out to operators 
for user requirements and to balance both ``technology push'' and 
``technology pull'' efforts, as appropriate. For the former, the 
technology developer is pushing a new concept out for examination by 
the operator. These systems may be otherwise unknown to operators, and 
are often state-of-the-art with enhanced or improved threat detection 
capabilities and may further allow for simplified operational use. 
Technology pull refers to equipment and programs where operators have 
identified new concepts of operation and/or features that they need in 
order to achieve their missions. The operators are constantly pulling 
the technologies in directions that guide our development of detection 
systems.
    DNDO works to address these challenges through a robust, long term, 
multi-faceted transformational and applied research and development 
(R&D) program. I would like to highlight a few of the projects in our 
transformational R&D portfolio that are showing significant progress 
and promise.
Helium-3 Alternatives
    Helium-3 has been widely used as a neutron detection component for 
radiation detection devices, such as RPMs. However, in recent years, 
our country has faced a helium-3 shortage. Years before the recent 
helium-3 shortage, DNDO was already exploring options for better, more 
cost-effective, alternatives for neutron detection. DNDO's 
transformational and applied research efforts included 14 different 
technologies that could be used instead of helium-3 tubes, including 
those based on boron or lithium.
    Once the shortage was identified, DNDO accelerated this progress 
and led an interagency working group to address the use of alternate 
neutron detection technologies. DNDO also queried the commercial 
marketplace for available systems. At a recently-completed test, 
present and next generation alternatives from DNDO's research and 
development and the private sector were evaluated and multiple systems 
proved to have sufficient performance to replace helium-3 in RPMs. As a 
result of DNDO's efforts, alternative neutron detection technologies 
are now commercially available and large quantities of helium-3 will no 
longer be necessary for use in RPMs. Importantly, due to a 
collaborative, USG-wide effort to address the shortfall, our U.S. 
strategic reserve of helium-3 has increased by 40 percent since 2009.
Advanced Radiation Monitoring Device (ARMD)
    Our Advanced Radiation Monitoring Device (ARMD) project focuses on 
enhancing our ability to distinguish benign radiological and nuclear 
materials, from those that potentially pose a threat. The ARMD project 
capitalizes on the efficiency and energy resolution of emerging 
detector crystals, such as strontium iodide (SrI<INF>2</INF>) and 
cesium lithium yttrium chloride, or ``CLYC'', to develop smaller, more 
capable detection systems. Through DNDO's efforts, the detector 
materials have sufficiently matured to the point where they are now 
commercially available. New handheld detector systems using these 
crystals are being designed, built, and will soon be ready for formal 
evaluation by DNDO.
Long Range Radiation Detection (LRRD) Project
    Our Long Range Radiation Detection (LRRD) project has the potential 
to have broad operational impact by significantly improving the range 
of detectors. Through the LRRD project, DNDO has been developing 
advanced technologies to detect, identify, and precisely locate 
radiation sources at stand-off distances, through passive gamma-ray 
imaging technology. We have focused on two systems: Stand-Off Radiation 
Detection Systems, which uses a mobile system to locate stationary 
sources; and the Road Side Tracker, which is a rapidly re-locatable 
monitoring system capable of identifying and tracking threats in moving 
vehicles across multiple lanes of traffic. Recent LRRD demonstrations 
included interagency partners from the technical and law enforcement 
communities, utilizing a ``technology push'' to allow operators to use 
the prototype systems in simulated and operational environments. DNDO 
is assessing the potential for further development based upon operator 
feedback and evaluations obtained during the demonstrations.
Networked Detectors
    To address nuclear detection in challenging operational 
environments, DNDO is working on networked detectors. These detectors, 
being developed in the Intelligent Radiation Sensor System (IRSS) 
project, are intended to facilitate situational awareness and improve 
capabilities to detect, identify, locate, and track threats across 
distributed sensors. The IRSS integrates data from across multiple 
portable detectors with the goal of improving overall system 
performance compared to a non-networked system. This technology will 
support operations where scanning for nuclear threats by routing 
traffic through checkpoints is not tenable. These operations are 
conducted at some special security events, between ports of entry along 
the land border, and include scanning general aviation or small 
maritime vessels for illicit radiological or nuclear materials.
Detecting Shielded Nuclear Threats
    Nuclear threats may be shielded or masked, increasing the challenge 
for passive detection techniques. To address shielded nuclear threats, 
DNDO has several important projects. The Shielded Nuclear Alarm 
Resolution project seeks to develop and characterize advanced active 
interrogation systems with improved ability to uniquely detect special 
nuclear material and to resolve alarms with confidence, even in the 
presence of significant countermeasures (such as shielding). This 
technology may substantially reduce the number of manual inspections 
required to resolve alarms, while increasing the probability of nuclear 
threat detection even when heavily shielded. Technologies of interest 
include induced fission, high energy backscatter, and nuclear resonance 
fluorescence.
    Recent advancements in the commercial sector have also resulted in 
technologies that combine the merits of passive and active technologies 
into a single system through either muon tomography or by integrating 
radiation detectors into X-ray radiography systems. In theory, these 
systems should be able to automatically detect nuclear threats, 
regardless of the shielding level, while providing an image for 
detecting other anomalies. In order to characterize the full 
performance capability of these technologies, DNDO recently solicited 
proposals for our Nuclear and Radiological Imaging Platform Advanced 
Technology Demonstration. This project will characterize imaging 
systems for scanning conveyances and identifying possible shielded 
threats. Results from this demonstration will be available in 2014.
 testing, evaluation, and standards for nuclear detection technologies
    Over the years, DNDO's test program has grown and matured. To date, 
DNDO has conducted more than 70 test and evaluation campaigns at over 
20 experimental and operational venues. These test campaigns were 
planned and executed with interagency partners using rigorous, 
reproducible, peer-reviewed processes. Tested nuclear detection systems 
include pagers, handhelds, portals, backpacks, and vehicle-, boat- and 
spreader bar-mounted detectors, as well as next-generation radiography 
technologies. The results from DNDO's test campaigns have informed 
Federal, State, local, and Tribal operational users on the technical 
and operational performance of nuclear detection systems, allowing them 
to select the most suitable equipment and implement effective concepts 
of operations to detect nuclear threats.
    DNDO has also supported the development, publication, and adoption 
of National consensus standards for radiation detection equipment. 
Several such standards now exist for use in homeland security. DNDO 
collaborated with the National Institute of Standards and Technology to 
conduct a review of all National and international consensus standards 
for nuclear detection systems, and formed an interagency working group 
to draft Government-unique technical capability standards (TCS). 
Earlier this year, we finalized the first TCS for hand-held systems.
    The success of the nuclear detection mission is contingent on 
timely information exchanges. To this end, DNDO successfully 
collaborated with the National Institute of Standards and Technology to 
create a major update of the Data Format Standard for Radiation 
Detectors used for Homeland Security. This standard facilitates the 
exchange of detection information by ensuring that the systems create 
and distribute data in a specified format to enable interoperability. 
Through the International Electrotechnical Commission (IEC) and the 
American National Standard Institute, this significantly improved 
standard (IEC 62755) is now internationally accepted. IEC 62755 was 
approved in late February 2012.
    The DNDO Graduated Radiological/Nuclear Detector Evaluation and 
Reporting (GRaDER<SUP>SM</SUP>) Program builds upon these standards to 
determine if commercially-available nuclear detection equipment 
complies with established standards. DNDO created the infrastructure 
for voluntary, vendor testing of commercial nuclear detection 
technologies by independent, accredited laboratories against National 
consensus standards and Government-unique TCS. This program encourages 
vendors to develop better nuclear detection and identification systems 
that meet evolving homeland security requirements.
    With the maturation of our test and evaluation program, DNDO's 
collaboration with interagency partners, such as DOE and DOD, and 
international partners, such as the United Kingdom, Canada, Israel, the 
European Union, and the International Atomic Energy Agency (IAEA), has 
increased significantly. For example, our close partnership with the 
DOE Second Line of Defense program, European Commission, and the IAEA 
for the Illicit Trafficking Radiation Assessment Program+10 (ITRAP+10) 
will result in a comprehensive evaluation of the performance of nearly 
100 commercially-available radiation detection systems against National 
and international standards. ITRAP+10 will allow for the refinement of 
nuclear detection standards and promote greater homogeneity in United 
States and international detection standards. The test program will 
conclude in the spring of 2013.
    increased collaboration with federal, state, and local partners
    Our ability to counter the nuclear threat is fundamentally based on 
the critical triad of intelligence, law enforcement, and technology. To 
maximize our ability to detect and interdict nuclear threats, it is 
imperative that we apply detection technologies in operations that are 
driven by intelligence indicators and place them in the hands of well-
trained law enforcement and public safety personnel.
    We have increased our collaboration with the intelligence 
community. By sharing information, personnel, and requirements, we 
continue to improve our ability to successfully bring technologies to 
bear on the nuclear detection mission. Additionally, we have made 
significant progress in ensuring that law enforcement officers are 
appropriately trained and equipped for the nuclear detection mission.
    DNDO has facilitated the delivery of radiation and nuclear 
detection training to thousands of Federal, State, and local officers 
and first responders Nation-wide. Our work with DHS partners has 
developed cross-sector capabilities for radiation and nuclear 
detection: All U.S. Coast Guard (USCG) boarding teams and 
Transportation Security Administration (TSA) Visible Intermodal 
Prevention and Response teams are equipped with detection capabilities.
    DNDO has also made considerable progress in deploying detection 
equipment. For example, DNDO has made available radiological and 
nuclear detection training to over 23,000 State and local law 
enforcement officers and first responders. In the New York City region, 
the Securing the Cities (STC) program has funded the deployment of 
nearly 8,500 pieces of detection equipment and provided the requisite 
training to over 13,000 personnel. This year, DNDO will also select a 
second region to implement a phased STC program, tailored to build a 
regional nuclear detection architecture and integrate State and local 
capabilities into the Federal response framework. DNDO will assist 
regional partners in implementing self-supported sustainment of 
capabilities and sharing of data from fixed, mobile, maritime, and 
human-portable radiation detection systems.
    DNDO also supports five Mobile Detection Deployment Units that are 
operated by our State and local law enforcement partners to provide 
enhanced detection capability at large public gatherings and special 
events. With regular use, these units, which are available upon 
request, are being integrated into exercises, operations, and planning 
for nuclear search operations in response to threats.
                               conclusion
    DNDO has come a long way since its creation in 2005. With our 
integrated approach to GNDA planning, testing and assessments, research 
and development, acquisition, and operational support, we continue to 
strengthen the Nation's capabilities to detect and interdict nuclear 
threats. We appreciate your continued support as we work with our 
partners to develop, evaluate, deploy, and support the necessary 
systems to implement a nuclear detection architecture that can 
effectively respond to credible intelligence and threat information.
    Chairman Lungren, Ranking Member Clarke, I thank you for this 
opportunity to discuss the nuclear detection architecture and the 
progress of DNDO. I am happy to answer any questions the subcommittee 
may have.

    Mr. Lungren. Thank you very much.
    Mr. Maurer.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Lungren, Ranking Member 
Clarke, and other Members and staff. I am pleased to be here 
today to discuss DHS's efforts to combat nuclear terrorism.
    Mr. Chairman, as you know well, GAO has been following and 
reporting on this topic for the past several years. In the 
interests of time, I would like to call your attention to some 
key themes from my statement at today's hearing.
    First and foremost, DHS is learning from its past mistakes. 
The best evidence of this is the Department's announcement last 
week that it was canceling the ASP program. Let us be clear, 
the ASP program was a failure for the Department.
    DHS prematurely pushed for full-scale production and 
deployment before it was clear the system would work in the 
real world, before unbiased testing demonstrated whether it 
worked better than existing systems, before completing a 
rigorous cost-benefit analysis, and without the benefit of a 
documented strategic approach to explain how the program fit 
into the broader effort to combat nuclear smuggling.
    But that was the past. Today, DHS has an overall strategy 
and implementation plan. These documents, in tandem, address 
our prior recommendations that, among other things, DHS define 
objectives, identify needed funding, and monitor progress. 
These documents are not perfect. We would like to see clearer 
articulation of priorities and a more robust discussion of 
anticipated resource needs. But they do demonstrate that DHS 
has changed for the better.
    The Department has also modified its overall approach. 
Today, DHS is less focused on deploying static radiation portal 
monitors and is placing greater emphasis on flexible 
approaches, deployable technology, and more attention to other 
aspects of the detection architecture.
    Looking ahead, DHS and Congress face some tough decisions. 
We have already invested billions of dollars in the currently 
deployed radiation detection technology. Some of these systems 
are starting to reach the end of their expected service life. 
DHS is currently studying whether to refurbish or replace its 
current system.
    Regardless of what path DHS takes, it will likely cost 
billions of dollars and take several years. With that in mind, 
it is important for DHS to position itself for the future. 
However DHS decides to modernize its existing capabilities, it 
should, No. 1, test before it buys. Any investment in new 
systems should include sufficient and rigorous testing to 
ensure they meet mission needs.
    No. 2, make sure new technologies meet the operational 
needs of the people who will be using them every day. No. 3, 
conduct a cost-benefit analysis to ensure the benefits from new 
systems are worth the costs in taxpayer dollars. Finally, 
ensure that decisions on what to buy are driven by the 
Department's strategies and plans, and not the other way 
around.
    Now, keep in mind, detection technology is an important 
part of the overall effort to keep a nuclear device out of the 
United States, but it is not the only one. Consider this, if 
the United States ever has to rely on a radiation portal 
monitor to stop a smuggled nuclear device, a lot of other 
things have already gone wrong.
    It means law enforcement missed it, the intelligence 
community missed it, our allies missed it, risk-based screening 
missed it, treaty regimes didn't work, and non-proliferation 
programs failed. All of these--play a key role long before 
detection technology at ports of entry come into play, and they 
should not be overlooked. That is why it is so important for 
the United States to have a clear and coherent strategy to tie 
all these various pieces together.
    The bottom line, keep your eyes on the billions that DHS 
will be investing in the future, hold DHS accountable for its 
strategies, and GAO will be there to help with that oversight, 
and remember that technology is one part of a much larger 
effort.
    Mr. Chairman, thank you for the opportunity to testify this 
morning and I look forward to your questions.
    [The statement of Mr. Maurer follows:]
         Prepared Statement of David C. Maurer and Gene Aloise
                             July 26, 2012
    Mr. Chairman, Ranking Member Clarke, and Members of the 
subcommittee: I am pleased to be here today to discuss the efforts of 
the Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO) to develop and deploy a global nuclear detection 
architecture (GNDA)--an integrated system of radiation detection 
equipment and interdiction activities to combat nuclear smuggling in 
foreign countries, at the U.S. border, and inside the United States--
and to provide an update on the deployment of radiation detection 
equipment at U.S. borders. Preventing terrorists from using nuclear or 
radiological material to carry out an attack in the United States is a 
top National priority. DNDO is charged with, among other things, 
enhancing and coordinating the nuclear detection efforts of Federal, 
State, local, and Tribal governments and the private sector to ensure a 
managed, coordinated response.\1\ Among other things, DNDO is required 
to coordinate with other Federal agencies to develop an enhanced GNDA. 
It is also responsible for developing, acquiring, and deploying 
radiation detection equipment to support the efforts of DHS and other 
Federal agencies. While Federal efforts to combat nuclear smuggling 
have largely focused on established ports of entry, such as seaports 
and land border crossings, DNDO has also been examining nuclear 
detection strategies along other potential pathways in the 
architecture, including: (1) Land border areas between ports of entry 
into the United States, (2) international general aviation, and (3) 
small maritime craft, such as recreational boats and commercial fishing 
vessels.
---------------------------------------------------------------------------
    \1\ National Security Presidential Directive 43/Homeland Security 
Presidential Directive 14, Domestic Nuclear Detection, April 15, 2005. 
DNDO was established in statute by the Security and Accountability for 
Every Port Act of 2006 (SAFE Port) Act, Pub. L. No. 109-347,  501, 120 
Stat. 1884, 1932 (codified as amended at 6 U.S.C.  591).
---------------------------------------------------------------------------
    Even before DNDO's inception in 2005, we were highlighting the need 
for a more comprehensive strategy for nuclear detection. In 2002, we 
reported on the need for a comprehensive plan for installing radiation 
detection equipment, such as radiation portal monitors, at all U.S. 
border crossings and ports of entry.\2\ In July 2008, we testified that 
DNDO had not developed an overarching strategic plan to guide the 
development of a more comprehensive GNDA, and we recommended that DHS 
coordinate with the Departments of Defense, Energy, and State to 
develop one.\3\ DHS agreed with our recommendation. In January 2009, we 
recommended that the Secretary of Homeland Security develop a strategic 
plan for the domestic part of the global nuclear detection strategy to 
help ensure the success of initiatives aimed at closing vulnerabilities 
in the United States.\4\ We stated that this plan should focus on, 
among other things, establishing time frames and costs for the areas 
DNDO had identified--land border areas between ports of entry, 
aviation, and small maritime craft. DHS did not comment on this 
recommendation but noted that it aligned with DNDO's past, present, and 
future actions. The status of these recommendations is discussed later 
in this testimony.
---------------------------------------------------------------------------
    \2\ GAO, Customs Service: Acquisition and Deployment of Radiation 
Detection Equipment, GAO-03-235T (Washington, DC: Oct. 17, 2002).
    \3\ GAO, Nuclear Detection: Preliminary Observations on the 
Domestic Nuclear Detection Office's Efforts to Develop a Global Nuclear 
Detection Architecture, GAO-08-999T (Washington, DC: July 16, 2008).
    \4\ GAO, Nuclear Detection: Domestic Nuclear Detection Office 
Should Improve Planning to Better Address Gaps and Vulnerabilities, 
GAO-09-257 (Washington, DC: Jan. 29, 2009).
---------------------------------------------------------------------------
    As we will discuss today, DHS has made meaningful progress in 
deploying radiation detection equipment at U.S. border crossings and 
seaports; however, as deployed portal monitors begin to reach the end 
of their expected service lives, DHS will soon need to make decisions 
about whether to refurbish or replace them. DHS has also made progress 
in developing key planning documents to guide the GNDA. This testimony 
discusses: (1) DHS's efforts to complete the deployment of radiation 
detection equipment to scan all cargo and conveyances entering the 
United States at ports of entry, (2) observations from our past work 
that may help DHS as it considers options for deploying new 
technologies to refurbish or replace existing portal monitors when they 
reach the end of their expected service lives, and (3) our assessment 
of the extent to which DHS has addressed our prior recommendations.
    This testimony is primarily based on our prior work on Federal 
efforts to detect and prevent the smuggling of nuclear and radiological 
materials, issued from October 2002 through July 2011. We have updated 
our prior work in this testimony to reflect DHS's continuing efforts to 
deploy radiation detection equipment. To do so, we met with DHS, DNDO, 
and Customs and Border Protection (CBP) officials and reviewed DHS 
documents including the GNDA strategic plan, the 2011 GNDA Joint Annual 
Interagency Review, and the GNDA implementation plan issued in April 
2012. As part of our update, we asked for, and DHS provided, a 
classified briefing that compared the GNDA capabilities with the 
expected capabilities of adversaries who may wish to smuggle nuclear 
material into the United States. Details on the scope and methodology 
for our prior reviews are available in our published reports. We 
conducted this work in accordance with generally accepted Government 
auditing standards.
    In summary, over the past 10 years, DHS has made significant 
progress in deploying radiation detection equipment to scan for nuclear 
or radiological materials in nearly all trucks and containerized cargo 
coming into the United Stated through seaports and border crossings. 
However, challenges remain for the agency in developing a similar 
scanning capability for railcars entering this country from Canada and 
Mexico, as well as for international air cargo and international 
commercial aviation. As portal monitors approach the end of their 
expected service lives, observations from our past work may help DHS as 
it considers options to refurbish or replace such monitors. Among other 
things, we have previously reported that DHS should: (1) Test new 
equipment rigorously prior to acquisition and deployment, (2) obtain 
the full concurrence of the end-user to ensure that new equipment meets 
operational needs, and (3) conduct a cost-benefit analysis to inform 
any acquisition decisions. In our past work on the GNDA, we recommended 
that DHS develop an overarching strategic plan to guide the development 
of the GDNA, as well as a strategic plan for the domestic part of the 
global nuclear detection strategy. DHS took action on these 
recommendations and, in December 2010, it issued the interagency GNDA 
strategic plan.\5\ We reported, in July 2011, that the GNDA strategic 
plan addressed several of the aspects of our prior recommendations but 
did not: (1) Identify funding necessary to achieve plan objectives or 
(2) employ monitoring mechanisms to determine progress and identify 
needed improvements. In April 2012, DHS issued its GNDA implementation 
plan, which addresses the remaining aspects of our recommendations by 
identifying funding dedicated to plan objectives and employing 
monitoring mechanisms to assess progress in meeting those objectives. 
However, in both the GNDA strategic plan and the implementation plan, 
it remains difficult to identify priorities from among various 
components of the domestic part of the GNDA.
---------------------------------------------------------------------------
    \5\ The GNDA strategic plan was an interagency effort jointly 
developed by the Departments of Homeland Security, Energy, Defense, 
Justice, and State; the intelligence community; and the Nuclear 
Regulatory Commission.
---------------------------------------------------------------------------
 dhs has made progress deploying radiation detection equipment at land 
           borders and major seaports, but challenges remain
    Over the past decade, DHS has made significant progress in 
deploying radiation detection equipment and developing procedures to 
scan cargo and conveyances entering the United States through land and 
sea ports of entry for nuclear and radiological materials, but it has 
made less progress with other pathways. In 2010, we reported that DHS 
initially planned to deploy more than 2,100 portal monitors to U.S. 
ports of entry. Due to funding constraints and challenges in developing 
new technologies, DHS is updating its portal monitor deployment plan by 
reducing the number of portal monitors it planned to deploy and 
increasing its reliance on portable systems. Specifically, according to 
DHS officials, DHS has deployed about 1,465 of the approximately 1,537, 
or 95 percent, of radiation portal monitors that it now plans to 
deploy; the agency expects to complete this deployment by December 
2014.\6\ As we reported in 2011, since 2009, DHS has scanned nearly all 
of the containerized cargo and conveyances entering the United States 
through land borders and major seaports for nuclear and radiological 
materials.\7\ However, as we reported in 2010 and 2011, DHS has made 
less progress scanning: (1) Railcars entering the United States from 
Canada and Mexico and (2) international air cargo and commercial 
aviation aircraft, passengers, and baggage.\8\
---------------------------------------------------------------------------
    \6\ Radiation portal monitors are large stationary detectors 
through which cargo containers and vehicles pass as they enter the 
United States.
    \7\ GAO, Combating Nuclear Smuggling: DHS has Developed a Strategic 
Plan for its Global Nuclear Detection Architecture, but Gaps Remain, 
GAO-11-869T (Washington, DC: July 26, 2011).
    \8\ GAO, Combating Nuclear Smuggling: DHS Has Made Some Progress 
but Not Yet Completed a Strategic Plan for its Global Nuclear Detection 
Efforts or Closed Identified Gaps, GAO-10-883T (Washington, DC: June 
30, 2010) and GAO-11-869T.
---------------------------------------------------------------------------
Land Ports of Entry
    As we reported in 2011, according to DHS officials, since November 
2009, almost all nonrail land ports of entry have been equipped with 
one or more radiation portal monitors. Of the about 1,465 portal 
monitors deployed, as of July 2012, 917, or about 63 percent, have been 
deployed along the Northern and Southern Borders of the lower 48 States 
to all but a few nonrail ports of entry. According to DHS officials, 
100 percent of all containerized cargo, conveyances, drivers, and 
passengers entering the United States through commercial lanes at land 
borders are scanned for radiation, as are more than 99 percent of all 
personally-operated vehicles (noncommercial passenger cars and light 
trucks), drivers, and passengers.
Seaports
    According to DHS officials, the Department scans nearly all 
containerized cargo entering U.S. seaports for nuclear and radiological 
materials. Specifically, of the about 1,465 portal monitors, DHS has 
deployed 453, or about 31 percent, of radiation portal monitors to 
major American seaports--including the largest seaports accounting for 
the majority of cargo. However, some smaller seaports that receive 
cargo may not be equipped with portal monitors. DHS officials told us 
they will know how many more portal monitors will be deployed to these 
smaller seaports when the agency completes its updated deployment plan 
in September 2012. Furthermore, in July 2012, these officials told us 
that, due to increased cargo volume at some major seaports, additional 
portal monitors may be needed to avoid delays in moving cargo through 
larger ports. In such cases, DHS officials told us that they are 
considering cost-sharing arrangements with seaport operators, whereby 
DHS and seaport operators would share the cost of additional portal 
monitor deployments. Under such arrangements, DHS would continue to 
purchase, maintain, and operate these additional portal monitors, but 
the seaport operators would share in the cost of deploying them.
International Rail
    As we reported over the last 2 years, DHS has made limited progress 
with regard to radiation scanning of the roughly 4,800 loaded railcars 
in approximately 120 trains entering the United States each day from 
Canada and Mexico through 31 rail ports of entry.\9\ Although, most 
international rail crossings have radiography systems to scan the 
majority of cargo, much of the scanning for nuclear and radiological 
materials that takes place at these ports of entry is conducted with 
portable, handheld radioactive isotope identification devices. This 
scanning is triggered when, for example, anomalous readings are 
detected from imaging scans of railcar contents. According to DHS 
officials, international rail traffic represents one of the most 
difficult challenges for radiation detection systems. Specifically, in 
June 2010, they told us that rail traffic poses unique operational 
challenges due to the length of the trains (up to 2 miles), the 
distance required to stop moving trains, and the difficulties in 
separating individual cars for further examination. Furthermore, DHS 
officials told us that rail companies typically own the land where DHS 
would need to establish stations for screening, and these companies 
often resist doing things that might slow down rail traffic. Moreover, 
DHS officials told us that an effective solution would require scanning 
of at least some rail traffic on Mexican or Canadian soil, and they 
said that it will take time to develop the close cooperation with 
officials in Mexico and Canada necessary to do so. Accordingly, in 
2010, DHS undertook an International Rail Threat and Gap Study to 
determine the most promising radiation detection approach. In July 
2012, DHS officials said that the agency is presently in the final 
stages of completing a second study analyzing technological and 
operational options. DHS officials told us that decisions about 
additional enhancement of radiation detection capabilities at 
international rail ports of entry are pending the results of this 
analysis and the Department's broader consideration of the needs and 
priorities of the GNDA. The second study is due to be completed in 
September 2012, according to DHS officials.
---------------------------------------------------------------------------
    \9\ GAO-10-883T and GAO-11-869T.
---------------------------------------------------------------------------
International Air Cargo and Commercial Aviation
    DHS has made less progress scanning air cargo and commercial 
aviation for nuclear and radiological materials. As of July 2012, DHS 
was scanning for nuclear and radiological materials at certain major 
international airports in the United States using some portal monitors. 
CBP also utilizes radioactive isotope identification devices and 
personal radiation detectors to alert the agency to the presence of 
such materials.
    DHS officials told us in June 2010 that they were studying options 
for effectively deploying portal monitors to increase their capacity to 
scan for nuclear and radiological materials in international air cargo 
conveyed on commercial airlines. According to these DHS officials, 
their experience scanning air cargo at a few major international 
airports in the United States has led them to conclude that the 
deployment of radiation portal monitors is not feasible at many 
locations due to the lack of natural choke points, where scanning would 
take place. Furthermore, these officials stated that scanning 100 
percent of air cargo would be technically and logistically challenging 
and would require significant investment in equipment, staffing, and 
maintenance resources. Moreover, further DHS analysis since June 2010 
has shown that there are no procedural or operational changes that can 
easily overcome the logistical and resource challenges associated with 
airports. Until solutions to these challenges can be found, DHS 
officials told us that the scanning for radioactive materials that 
occurs at airports will continue to be conducted primarily with 
handheld detectors where portal monitors are not deployed.
    Similarly, DHS does not scan all commercial aviation aircraft, 
passengers, or baggage for radioactive materials with portal monitors. 
However, passengers are scanned for radioactive materials with 
radioactive isotope identification devices when DHS is alerted to the 
presence of radiation by CBP officers' personal radiation detectors, 
and some baggage is scanned by radiation portal monitors at selected 
overseas airports.
  observations from our past work for dhs to consider when replacing 
                            portal monitors
    As deployed portal monitors reach the end of their expected service 
lives, observations from our past work may help DHS as it considers 
options for deploying new technologies as to whether to refurbish or 
replace them. DHS has been procuring portal monitors for about 10 
years, and DHS officials estimate that the expected service life of 
many of these portal monitors is about 10 to 20 years. Their service 
lives can be extended by refurbishing their key components but doing so 
also requires some additional investment. In July 2012, DNDO and CBP 
officials told us they are working on a portal monitor replacement 
strategy that is due to be completed in 2013. As DHS considers options 
to refurbish existing systems, or replace them with new systems, 
observations from our past work may help the agency make the most 
informed decisions, mitigate risks, and produce expected outcomes. 
Specifically, we believe it is important that DHS consider the 
following:
  <bullet> Taking into account the overall priorities of the domestic 
        side of the GNDA before making investments or reinvestments in 
        ports and border crossings.--Ports and border crossings have 
        received most of the investment of radiation detection 
        technologies because these are the areas through which a 
        significant amount of cargo must pass, and Federal law requires 
        certain scanning at seaports.\10\ However, as discussed 
        earlier, other pathways also pose risks. As we reported in 
        2011, any additional investment in radiation detection 
        equipment needs to be consistent with the highest priority 
        needs of the domestic side of the GNDA, including examining and 
        balancing the needs and risks of all smuggling pathways into 
        the United States.\11\ In July 2012, DHS officials told us they 
        agreed that further investment in detecting radiation in ports 
        and border crossings needs to be consistent with the overall 
        needs of the GNDA.
---------------------------------------------------------------------------
    \10\ 6 U.S.C. 921 (2006).
    \11\ GAO-11-869T.
---------------------------------------------------------------------------
  <bullet> Testing new equipment rigorously prior to acquisition and 
        deployment.--One of the principal findings of our past work 
        reviewing DNDO's efforts to develop and procure the advanced 
        spectroscopic portal--a more advanced radiation portal 
        monitor--was that initial testing was not rigorous enough.\12\ 
        Once the testing became more rigorous, these portals did not 
        perform well enough to warrant deployment, and the program was 
        subsequently cancelled, after DNDO had spent more than $280 
        million on development and testing costs. Consistent with our 
        past recommendations, any investment in new equipment should 
        include sufficient and rigorous testing to ensure that any new 
        selected equipment performs well enough to meet mission needs. 
        DNDO officials told us that DNDO is currently working on a 
        collaborative effort with the radiation detection agencies of 
        the European Union to test the capabilities of currently 
        available radiation detection equipment, including portal 
        monitors, from multiple vendors. This testing is part of the 
        Illicit Trafficking Radiation Assessment Program and is not 
        connected to any planned acquisition; instead, it will provide 
        performance information on a variety of radiation detection 
        equipment. According to DHS officials, the final report from 
        this testing is expected in 2013, and DNDO could use the 
        results as part of its basis for considering whether to replace 
        currently deployed portal monitors with other devices.
---------------------------------------------------------------------------
    \12\ For further information regarding our work on the advanced 
spectroscopic portal, see GAO, Combating Nuclear Smuggling: Additional 
Actions Needed to Ensure Adequate Testing of Next Generation Radiation 
Detection Equipment, GAO-07-1247T (Washington, DC: Sept. 18, 2007); and 
GAO, Combating Nuclear Smuggling: DHS Improved Testing of Advanced 
Radiation Detection Portal Monitors, but Preliminary Results Show 
Limits of the New Technology, GAO-09-655 (Washington, DC: May 29, 
2009).
---------------------------------------------------------------------------
  <bullet> Obtaining full concurrence of the end user--CBP--to ensure 
        that any new equipment meets CBP's operational needs.--Our past 
        work on the advanced spectroscopic portal and DNDO efforts to 
        develop a system to use radiography to scan cargo for nuclear 
        materials found that DNDO did not fully understand: (1) How CBP 
        used existing radiation detection equipment in a port 
        environment or (2) the extent of the space limitations in port 
        environments.\13\ Consistent with our past findings, decisions 
        to rehabilitate or replace currently deployed portal monitors 
        need to be made with the full buy-in of CBP--particularly if 
        the decision involves new equipment or technologies. Obtaining 
        early buy-in from CBP will help ensure any new equipment is 
        consistent with CBP's operational needs.
---------------------------------------------------------------------------
    \13\ GAO, Combating Nuclear Smuggling: Recent Testing Raises Issues 
About the Potential Effectiveness of Advanced Radiation Detection 
Portal Monitors, GAO-10-252T (Washington, DC: Nov. 17, 2010) and GAO, 
Combating Nuclear Smuggling: Inadequate Communication and Oversight 
Hampered DHS Efforts to Develop an Advanced Radiography System to 
Detect Nuclear Materials, GAO-10-1041T (Washington, DC: Sept. 15, 
2010).
---------------------------------------------------------------------------
  <bullet> Conducting a cost-benefit analysis to inform acquisition 
        decisions.--A key part of deciding whether to refurbish or 
        replace currently deployed portal monitors is conducting a 
        comprehensive cost-benefit analysis that can be used to compare 
        the relative costs and expected benefits of existing versus new 
        equipment. Consistent with our past recommendations in 2006 on 
        portal monitors, such an analysis should articulate what 
        enhanced performance could be expected of new equipment and 
        whether this benefit is worth its cost.\14\
---------------------------------------------------------------------------
    \14\ GAO, Combating Nuclear Smuggling: DHS Has Made Progress 
Deploying Radiation Detection Equipment at U.S. Ports-of-Entry, but 
Concerns Remain, GAO-06-389 (Washington DC: Mar. 22, 2006).
---------------------------------------------------------------------------
    dhs's gnda strategic and implementation plans address our past 
        recommendations but do not yet clearly define priorities
    In our past work on the GNDA, we made recommendations about the 
need for a strategic plan to guide the development of the GDNA. Among 
other things, in July 2008, we recommended that DHS develop an 
overarching strategic plan for the GNDA that: (1) Clearly defines the 
objectives to be accomplished, (2) identifies the roles and 
responsibilities for meeting each objective, (3) identifies the funding 
necessary to achieve those objectives, and (4) employs monitoring 
mechanisms to determine programmatic progress and identify needed 
improvements.\15\ DHS agreed with our recommendation. In January 2009, 
we recommended that DHS develop a strategic plan for the domestic part 
of the global nuclear detection strategy and that this plan focus on 
establishing time frames and costs for addressing previously identified 
pathways within the architecture--land border areas between ports of 
entry, aviation, and small maritime vessels.\16\ DHS did not comment on 
this recommendation but noted that it aligned with DNDO's past, 
present, and future actions.
---------------------------------------------------------------------------
    \15\ GAO-08-999T.
    \16\ GAO-09-257.
---------------------------------------------------------------------------
    DHS has taken action on these recommendations. In December 2010, 
DHS issued the interagency GNDA strategic plan and in April 2012, it 
issued its GNDA implementation plan for domestic aspects of the GNDA. 
As we reported in July 2011, the 2010 GNDA strategic plan addresses 
several aspects of our prior recommendations--including defining 
program objectives and assigning roles and responsibilities.\17\ 
However, it did not: (1) Identify funding necessary to achieve plan 
objectives or (2) establish monitoring mechanisms to determine progress 
and identify needed improvements. DHS officials stated at that time 
that they intended to include these aspects of our recommendations in 
an upcoming implementation plan.
---------------------------------------------------------------------------
    \17\ GAO-11-869T.
---------------------------------------------------------------------------
    Our review of the April 2012 GNDA implementation plan found that 
DHS had made progress in both identifying funding dedicated to plan 
objectives and in employing monitoring mechanisms to assess progress in 
meeting plan objectives. Furthermore, the plan has established specific 
milestones for completing many of DHS's activities--allowing a further 
assessment of whether progress is being made according to plan time 
frames. In our view, these actions address the intent of our 2008 
recommendations to identify necessary funding and employ monitoring 
mechanisms. The plan also discusses strategies for addressing 
previously identified pathways in the domestic portion of the GNDA, 
including time frames and costs for key elements of DHS' approach. 
While these pathways remain an area of concern, the strategies 
discussed in the plan address our 2009 recommendations and lay out an 
approach to making nuclear smuggling through these pathways more 
difficult and thus less likely to succeed. As DHS updates the 
implementation plan in the future, providing additional details and 
discussion about how the strategy will address the pathways in the 
domestic GNDA could better position DHS to make decisions regarding 
resource allocations.
    However, in both the GNDA strategic plan and the implementation 
plan, it remains difficult to identify priorities from among various 
components of the domestic part of the GNDA. As we reported in July 
2011, one of the key benefits of a strategic plan is that it is a 
comprehensive means of establishing priorities and using these 
priorities to allocate resources so that the greatest needs are being 
addressed.\18\ In times of tight budgets, allocating resources to 
address the highest priorities becomes even more important. Identifying 
priorities would help inform DHS's decisions to refurbish or replace 
portal monitors or invest in radiation detection equipment for other 
potential pathways. DHS has done a comprehensive analysis of GNDA 
capabilities and compared its capabilities with the expected 
capabilities of adversaries who may wish to smuggle nuclear material 
into the United States. This classified analysis provides data that DHS 
could use as a basis to set priorities within the GNDA. DHS officials 
told us they agreed that the implementation plan did not yet articulate 
specific priorities for GNDA program areas with the greatest need for 
development and resources and that the DHS classified analysis of GNDA 
capabilities could help inform those priorities. These officials told 
us the implementation plan was an iterative document that was designed 
to be periodically updated and that future versions of the plan would 
provide a greater discussion of priorities.
---------------------------------------------------------------------------
    \18\ GAO-11-869T.
---------------------------------------------------------------------------
    Mr. Chairman, Ranking Member Clarke, and Members of the 
subcommittee, this concludes my statement. I would be happy to answer 
any questions that you may have at this time.

    Mr. Lungren. Thank you very much.
    Mr. Oxford.

STATEMENT OF VAYL S. OXFORD, NATIONAL SECURITY EXECUTIVE POLICY 
         ADVISOR, PACIFIC NORTHWEST NATIONAL LABORATORY

    Mr. Oxford. Good morning, Chairman Lungren, Ranking Member 
Clarke, and other distinguished Members of the committee, it is 
a pleasure to be here to discuss PNNL's support to DHS in 
formulating and executing an effective and efficient nuclear 
detection strategy.
    At PNNL we have a long legacy of supporting Federal, State, 
local, private, and international users to protect them from 
and help them recover from WMD attacks. We find solutions for 
DHS, NNSA, DOE, DOD, DIC, and other Federal agencies.
    Today, about half of what PNNL spends of its $1.1 billion 
budget is devoted to National security missions. Our mission-
focused approach always considers the operational environment 
and the operators executing this mission, including the CVP 
officers at the ports of entry, the Border Patrol agents 
between ports of entry, the Coast Guard personnel protecting 
the maritime environment, the TSA officers protecting the 
transportation venues, and State and local and Tribal first 
responders.
    PNNL has also been deeply involved in many aspects of the 
nuclear detection strategy to include a decade of support of 
DHS and NNSA deploying radiation detection portal monitors to 
U.S. land and seaports of entry, and ports of departure around 
the world.
    We provide expertise and support to DHS to formulate 
strategies that balance risk reduction and total program costs, 
including long-term O&M costs associated with various 
technologies. We evaluate emerging technologies and concepts of 
operation for application in non-PON, like Ondoc and 
international rail, to include analysis of alternatives, 
technologies assessments, life-cycle cost estimates and threat 
definitions.
    We identify new detection materials to include the 
resolution and processing time in detecting rad/nuc threats. We 
provide strategic planning, program support, training and 
overseas installation in material, control and accountability 
and second line of defense of radical new detection systems.
    Last year PNNL supported efforts in over 100 foreign 
countries. Since 2002, PNNL has been an integral part of the 
DHS radiation portal monitor program, deploying rad/nuc 
detection technologies at approximately 530 U.S. ports of 
entry. This support extended to working with DHS, NNSA, and 
other National laboratories to identify alternatives to the 
helium-3 shortage for neutron detection.
    Finally, we perform preliminary analysis for the 
anticipated life cycle for the currently deployed RPMs, and 
propose sustainment strategies to extend their life cycle while 
assessing associated costs. Significant progress has been made 
in the last 10 years to protect the Nation from the threat of 
nuclear terrorism, but there is still much work to be done. 
That work involves developing and executing risk-based 
strategies associated with all vectors into the country that 
are integrated with other security programs in DHS and across 
the U.S. Government.
    We must consider the current status of our deployed 
systems. The second line of defense and mega ports programs are 
currently transitioning to sustainment in current capabilities 
and coverage overseas. Domestic coverage includes scanning over 
99 percent of all incoming containerized cargo at land and sea 
ports of entry.
    We are conducting preliminary pre-clearance of passenger 
and baggage at some foreign airports. We are sustaining a 
maritime security program in the Puget Sound to protect against 
the small vessel maritime threat. We continue the Securing the 
Cities Program in New York, and expansion to a second city is 
expected in 2013. DHS is now requiring and deploying the next 
generation handheld radiation detection systems to enhance GDP 
to field operations.
    Finally, we have equipped the U.S. Coast Guard boarding and 
TSA Viper teams with radiation detection capabilities. Despite 
these successes, there are areas that we are involved, 
including addressing threats in general aviation and commercial 
air cargo, expanding the small maritime vessel programs, 
looking at areas between ports of entry, and finally, an 
expanded major urban area concentration.
    In closing, PNNL has provided critical support to the 
formulation and implementation of nuclear counterterrorism 
efforts around the globe and is ready to continue that support, 
especially in light of the threat of nuclear terrorism has not 
diminished.
    I thank you for the chance to appear before you today and 
welcome any questions you might have.
    [The statement of Mr. Oxford follows:]
                  Prepared Statement of Vayl S. Oxford
                             July 26, 2012
                              introduction
    Chairman Lungren, Ranking Member Clarke, and other distinguished 
Members of the committee, it is a pleasure to be here and discuss 
PNNL's support to DHS in formulating and executing an effective and 
efficient nuclear detection strategy. This is a very important issue; 
one that I personally consider critical and worthy of great attention, 
and resources that demands the collective efforts of the USG and the 
international community. I have devoted much of my career to combating 
the threat of weapons of mass destruction (WMD) with the focus ranging 
from developing offensive capabilities to locate, exploit, and defeat 
WMD-related facilities to developing policies and approaches to 
interdict illicit transfers of WMD-related materials and technologies 
to combat the threat of nuclear terrorism.
    Pacific Northwest National Laboratory (PNNL) has a long history of 
providing valuable support to numerous Federal, State, local, private, 
and international users to protect them from and help them recover from 
WMD attacks. PNNL is one of ten U.S. Department of Energy (DOE) 
National Laboratories managed by DOE's Office of Science (SC). Our 
support strengthens the Nation's foundation for innovation, and we find 
solutions for not only DOE, but for DHS, the National Nuclear Security 
Administration (NNSA), the Department of Defense (DoD), the 
intelligence community, other Government agencies, universities, and 
industry. Our multidisciplinary technical teams are brought together to 
address the Nation's most pressing issues in energy, environment, and 
National security through advances in basic and applied science.
                        role of doe laboratories
    The DOE and NNSA complex of National Laboratories, which are and 
have been a vital centerpiece of the Nation's research and development 
capabilities for over 60 years, continue to play a prominent role in 
developing and deploying technologies to protect America against 
evolving threats, most especially, the rad/nuc threat.
    Important objectives of DOE's multi-program science laboratories 
are to accelerate the rate of innovation, steward unique National 
capabilities, and leverage the National science base for the benefit of 
diverse applied missions. The rad/nuc detection research programs at 
PNNL successfully illustrate how these objectives come together. We 
have scientific and engineering strengths and historic capabilities 
with roots dating back to the Manhattan project of the 1940s at the 
Hanford Site. Today, approximately half of PNNL's $1.1 billion business 
is centered on National security missions. Threat detection technology 
development and deployment is a central part of these programs and one 
in which science plays a particularly critical role.
                          front-line operators
    It is important to note that the most critical element of the 
nuclear detection strategy is the brave men and women who execute this 
important mission day in and day out--the U.S. Customs and Border 
Protection officers at our ports of entry (POE), the Border Patrol (BP) 
agents between our POEs, the U.S. Coast Guard (USCG) personnel 
monitoring our waterways, the Transportation Security Administration 
(TSA) officers defending transportation venues, and the State, local, 
and Tribal first responders, and international partners. Nuclear 
detection is just a single aspect of one of many missions they execute 
each and every day, and the role of technology is to enable these 
tremendously capable men and women, to make the mission of interdiction 
of nuclear threats more efficient, more effective, and less onerous. 
PNNL takes great pride in the opportunities afforded it to work 
alongside and partner with mission personnel to understand their 
requirements and operational environments. We are committed and work 
hard to support them in the execution of all aspects of their mission 
and to provide them with operationally and technically effective and 
efficient solutions to their requirements.
    To successfully detect and interdict nuclear materials requires an 
informed encounter. There are three elements in an informed encounter: 
(1) Know the signature or indications of illicit nuclear trafficking, 
(2) place your personnel or assets in a position where they have the 
opportunity to sense or observe the signature of indication, and (3) 
accurately interpret the indications when presented. Clearly technology 
can play a role in this process, but there is no substitute for well-
trained law enforcement personnel.
    It is also important to consider all of the actions we can take to 
detect illicit nuclear trafficking activities. Nuclear detection 
technology has and will continue to play a critical role. However, this 
is only one source of relevant data. There are other physical sensors 
that could play an important role. Imagine if operators were able to 
determine if someone has been in the presence of nuclear materials 
though a simple hair sample. Additionally, operators clearly need more 
capable information sensors. The number and diversity of data sources 
continues to increase and provides a key opportunity to identify 
illicit trafficking activities. However, the ability to ingest and 
analyze the sheer quantity of data requires new solutions that will 
only be realized through additional research and development that is 
currently being undertaken at PNNL and other National Laboratories.
    In the end, all of these tools are either collecting data for or 
actually performing the analysis to find signatures of illicit nuclear 
trafficking. Signatures are not new in this business, but it is 
important that we continue to systematically look for new signatures. 
The new signatures are likely to combine disparate data or approaches 
to increase sensitivity and specificity. However, new signatures must 
be evaluated for accuracy, the cost and risk to collect them, and 
whether they change or evolve over time. Finally, it is crucial that we 
provide an integrated framework that allows the analysis and decision-
making--by analysts, front-line operators, and senior officials.
     pnnl's role in the evolution of the nuclear detection strategy
    Initial response to the terrorist events of 9/11 included far-
reaching and comprehensive strategies for technology deployment across 
various points or layers for possible interdiction including: The place 
of origin for nuclear materials or weapons, foreign border crossings 
and airports, ports of departure, ports of entry, between the ports of 
entry, and the target. In particular, PNNL has supported the deployment 
of radiation detection equipment for over a decade in partnership with 
DHS and NNSA to achieve initial post-9/11 and SAFE Ports Act scanning 
goals at domestic POEs and ports of departure (POD) around the world.
    Since 9/11, DHS has a more mature assessment of the nuclear threat 
and a deeper understanding of how to evaluate the risks through various 
technology insertion strategies. Coupled with the current budget 
realities, new strategies are emerging that balance risk reduction and 
total program costs, including the long-term operations and maintenance 
(O&M) costs associated with various technologies. As an example of how 
the risk analyses have matured, the new analyses more accurately 
recognize the fact that the presence of uniformed CBP officers and BP 
agents at POEs and BP checkpoints, along with the extensive range of 
regulatory and security functions performed by officers/agents provides 
for a substantial deterrent and makes the POEs a significantly less 
desirable entry path into the country. Hence, new, risk-based 
strategies for radiation detection equipment at the POEs are currently 
being generated.
    The risk-based analyses highlight key gaps and vulnerabilities. 
These gaps need to be solved through a combination of material and non-
material solutions. Over the last few years, DHS has implemented 
rigorous systematic approaches to define and address these gaps. In 
support of these systematic approaches, PNNL has been providing 
expertise and support to DHS in formulating and executing these new 
strategies. This support includes risk analyses, evaluation and 
deployment of technologies, technology pilots, O&M strategies, and 
impact analyses, etc.
 pnnl strategic support to the development and implementation of a dhs 
                                strategy
    PNNL has been a strategic partner with DHS and its interagency 
partners and supported the development and implementation of the 
nuclear detection strategy. Those partners include CBP and BP, USCG, 
and TSA within DHS; NNSA; and DoD. Specific support to DNDO, 
responsible within DHS for the development of the GNDA, has included 
assisting with the development of the first GNDA Strategic Plan that 
was delivered to Congress in December 2010, conducting numerous 
architectural studies of potential threat pathways, collaborating on 
the development of a risk analysis model, and determining potential 
efforts to strengthen relationships between the GNDA and the 
interagency. PNNL has provided this strategic support since its 
initiation in 2005 and continues to this day.
    One example worth noting that illustrates the unique role PNNL 
plays in supporting DHS architecture advancement is the development of 
the Rad/Nuc Risk Analysis Model (RNRAM) in collaboration with Battelle 
Memorial Institute. This improved RNRAM, compared to previously-
employed risk analysis tools, will allow DNDO to more easily and 
quickly determine risks associated with the GNDA and incorporate the 
most recent information for more timely results.
    PNNL participated in several characterization surveys of the major 
and minor airports in metropolitan areas. These survey teams were led 
by CBP with representatives from DNDO and PNNL. The fact gathering at 
the airports, including the obtaining of extensive information on 
stakeholders, cargo handling procedures, and CBP's inspection and cargo 
release process, supported the development of an approach to study the 
scanning opportunities for international air cargo. PNNL conceptualized 
cargo movement, captured it as stylized diagrams, and developed a 
matrix of conceptual rad/nuc scanning systems versus cargo encounter 
locations. PNNL also developed a potential volume model that makes use 
of commercial flight data and other open source data to quantify 
international air cargo movement around the airport. The model 
estimates the percentage of cargo volume passing various encounter 
locations at an airport.
    PNNL managed the Puget Sound portion of DNDO's West Coast Maritime 
Pilot project. Activities included pilot exercise series, which began 
with the Concept Development Conference and ended with a full-scale 
exercise. The pilot agencies were eager to sustain the capability 
developed in the Puget Sound. Sustainment was coordinated for the 
region through the Puget Sound Area Maritime Security Committee, and 
they secured a Port Security Grant, the first of its kind for rad/nuc 
detection. The grant will fund the continued maintenance of detection 
equipment in the region, new equipment for new agency participation, 
and additional training.
    PNNL is currently doing work for DNDO in the international rail 
environment by using modeling and testing to support the analysis-of-
alternatives work that includes technology assessments, concept of 
operation development, life-cycle cost estimates, deployment task 
definitions, port of entry site surveys, and threat definition. 
However, the fact remains that the operational constraints in the rail 
environment are quite daunting to perform rad/nuc detection efforts.
    CBP does utilize imaging systems along the Mexican and Canadian 
border to inspect international rail traffic. PNNL has been involved in 
efforts to both evaluate and optimize system performance.
    In the area of new detection materials, PNNL has been using its 
expertise in materials discovery to identify, select, and develop new 
materials that will improve the resolution and processing time in 
detecting radiological and nuclear devices. Experts now have a greater 
understanding of the potential materials covering the four conventional 
semiconductor material classes. They were able to narrow over 2,000 
material compositions to a list of 245 that may have comparable 
performance characteristics to cadmium zinc telluride, a well-known 
radiation detection material. This work has drawn collaborative 
interests from multiple industrial and academic partners with plans to 
develop new detection instruments, increasing effectiveness in the 
field.
    As DHS, the interagency, industry, and academia advance the 
technology and materials used in the detection of rad/nuc materials 
there needs to be a commensurate testing and evaluation program to 
ensure those systems and materials detect the types of threats we are 
concerned with. In addition, they should be tested in an environment 
that closely approximates the operational environment to ensure the 
systems or materials can withstand the rigors of front-line operators 
like CBP, USCG, or TSA.
                   deployment support to dhs and nnsa
    PNNL's strategic support to the nuclear detection strategy stems 
from our unique understanding of the operational environment, both 
domestically and internationally. Over the past 2 decades PNNL has been 
a part of or managed for the U.S. Government large-scale deployment 
programs of rad/nuc detection systems that are an essential component 
of a layered defense strategy. Part of that strategy involves securing 
rad/nuc materials at its source overseas. Locking down proliferation 
concern materials where they legally reside is critically important and 
much progress has been made by the various Cooperative Threat Reduction 
(CTR) programs involved with this work. Over the years PNNL has 
provided strong leadership, sound programmatic recommendations, and 
high-value technical contributions supporting the management of 
projects, strategic planning, training, infrastructure development, and 
the overseas installation of Material Protection Control and Accounting 
(MPC&A) and Second Line of Defense (SLD) rad/nuc detection systems in 
support of the Office of International Materials Protection and 
Cooperation (NA-25) in NNSA. Last year alone, PNNL provided its 
capabilities in over 100 foreign countries through staff travel or 
relocation as part of these programs and NNSA's Global Threat Reduction 
Initiative (GTRI) which seeks to secure radiological sources in foreign 
countries that might be used for a radiological dispersal device (RDD), 
also known as a ``dirty bomb.''
    PNNL subject matter experts in the fields of system engineering, 
protective forces, physical protection, material control and 
accounting, radiation detection, physics, materials science, training, 
procurement, and technically-related project management helped NNSA 
execute large, highly-visible nuclear nonproliferation/National 
security projects around the globe. These same experts have been 
utilized by the DoD as part of its Guardian Program that seeks to 
deploy rad/nuc detection systems at U.S. military bases domestically 
and overseas.
    Since 2002, PNNL has been an integral part of DHS' Radiation Portal 
Monitor Program (RPMP) which deploys rad/nuc detection technology to 
scan incoming international traffic and cargo for illicit radioactive 
materials at approximately 530 ports of entry into the United States 
while maintaining the uninterrupted flow of legitimate trade and 
travel.
    PNNL support to RPMP also includes tapping into our scientific 
expertise to tackle such technical issues as supporting efforts to 
transition the Nation's portal monitoring activities away from the 
current neutron detection standard, which is based on the now highly-
constrained helium-3 (He-3) commodity, toward more sustainable 
solutions. Several DOE labs, in conjunction with industry, the DNDO, 
and NNSA, played critical roles in driving innovation and evaluating 
technology so that today's detection system needs are met with 
commercial instrumentation that does not consume precious He-3. In the 
longer run, improved detection systems will require more rapid 
discovery of new materials with advanced capabilities. To this end, 
laboratories such as PNNL have focused on the fundamental science 
necessary to understand how and why radiation detection materials 
function as they do.
    Another example of PNNL work involves improving the capability of 
currently deployed RPMs via advanced algorithms. RPMs operate via 
algorithms that allow the technology to detect radiation from 
threatening materials, but these algorithms sometimes result in a large 
number of alarms from naturally-occurring radioactive materials (NORM) 
as well. The current data provided by the RPMs make it difficult to 
directly distinguish between the two, thus requiring a referral to 
secondary inspection. PNNL is adapting its anomaly detection algorithms 
to improve the detection of illicit rad/nuc materials. In addition, 
PNNL also continues to make significant progress on the DNDO-sponsored 
Energy Window Optimization Initiative. The initial results indicate a 
potential for modest reduction of alarms due to NORM on deployed RPMs 
while holding the threat detection probability constant through 
optimization of existing system settings.
              sustainment of current domestic architecture
    When deployment started in 2002 as part of RPMP, the RPMs were 
estimated to have a 10-year life cycle. However, the deployment of RPMs 
across U.S. POEs is the first of its kind on this scale. While regular 
maintenance is part of RPM sustainment, the goals of upgrading for 
improved performance, controlling costs, eventual replacement of aged 
systems, and maintaining configuration commonality are fundamentally in 
conflict. Thus, the best approach to sustaining and replacing these 
systems is still being developed. PNNL is analyzing the anticipated 
life cycle for an RPM and proposing sustainment strategies to extend 
their life cycle and understand the associated costs.
    PNNL has also used its expertise in RPM technology to support CBP 
operations across a full range of engineering work including 
maintaining and upgrading individual pieces of hardware and software to 
managing the service of entire systems. Two of PNNL's key support 
functions are trouble call handling and calibration. For example, PNNL 
provided subject matter expertise via phone support to CBP's 
Enforcement Technology Program as needed regarding preventive 
maintenance, repairs, and improvements to ensure installed systems 
remain fully operational. PNNL staff also calibrate systems annually to 
prevent long-term drift or degradation, minimizing the effects of the 
recalibration process on port operations. PNNL is also assisting CBP's 
Enforcement Technology Program in sustaining fully-transitioned RPM 
equipment and related systems within CBP so that all systems continue 
to operate as planned in detecting threats.
    PNNL also plays a key role in the management and execution of the 
sustainability strategy under NNSA's SLD program. Maintaining the 
operational effectiveness of foreign deployed rad/nuc detection systems 
is critically important and PNNL operates a help desk that provides as-
needed troubleshooting assistance to foreign partners. Implementing 
robust preventative maintenance programs, tracking system performance, 
developing partner-country training capabilities and providing 
assistance in the creation of National alarm response plans are all 
activities that PNNL leads on behalf of NNSA to help ensure long-term 
risk reduction is achieved.
                     considerations for next steps
    Although significant progress has been made across the last decade 
to protect the United States from the threat of nuclear terrorism, 
there is still work to be done. Much of that work involves developing 
and executing strategies associated with all pathways into the country 
that are risk-based and highly integrated with all security programs in 
DHS and throughout the USG.
    In order to discuss next steps associated with an effective 
strategy to combat the threat of nuclear terrorism, it is important to 
summarize some high-level views of the significant progress that has 
been made to date that PNNL has directly supported:
  <bullet> On the international front, the SLD program is increasing 
        its focus on both the sustainment of deployed radiation 
        detection systems and expanding the provision of mobile 
        ``surge'' radiation detection technologies to special law 
        enforcement agencies.
  <bullet> Implementation at the POEs, in the maritime vector, for 
        general aviation, and within cities:
    <bullet> Scanning over 99% of all incoming cargo at land and sea 
            ports of entry;
    <bullet> Preliminary pre-clearance of international general 
            aviation aircraft at foreign airports;
    <bullet> Successful maritime pilot demonstration and sustained 
            program in the Puget Sound to protect against the small 
            maritime vessel threat;
    <bullet> On-going Securing the Cities program in the New York City 
            region and an expansion to a second city expected in 2013;
    <bullet> Acquisition and deployment of the next generation handheld 
            radiation detection system to enhance CBP's field 
            operations;
    <bullet> Successful equipping of the USCG boarding teams and TSA 
            Visible Intermodal Prevention and Response (VIPR) teams 
            with radiation detection capabilities.
    Despite these successes there are still areas of the DHS detection 
strategy that will continue to evolve including:
    <bullet> General aviation and commercial air cargo;
    <bullet> Small maritime vessels;
    <bullet> Areas between POEs;
    <bullet> Protection of major urban areas;
    <bullet> Next-generation detection and imaging technology.
    PNNL stands poised to continue to support DHS in further developing 
and executing these evolving strategies.
                                closing
    Mr. Chairman and Members of the committee, protecting the Nation 
from a nuclear attack has been at the top of U.S. Government priorities 
for at least the last 11 years and PNNL has been honored to provide 
essential support to U.S.G. strategy formulation and implementation of 
nuclear counterterrorism efforts around the globe and stands ready and 
prepared to continue its support. There is still much work left to be 
done. Advanced risk analyses and highly-integrated strategies need to 
emerge to ensure capabilities are not eroded but actually improve, 
despite current fiscal realities since, unfortunately, the threat of 
nuclear terrorism has not diminished. I thank you for the chance to 
appear before you today and welcome any questions you might have.

    Mr. Lungren. Thank you very much, all the panelists, and I 
thank you for staying within the time of 5 minutes each.
    We will start our round of questioning.
    First of all, Mr. Maurer, thank you for the work that you 
have done and GAO has done on this and helping us for a 
vigorous oversight. I was interested to see someone who 
attended Michigan State and the University of Michigan. You 
don't show any of the schizophrenic attitude I would expect 
from somebody like that.
    Mr. Walberg. It doesn't happen in Michigan.
    Mr. Lungren. It doesn't? Oh, it doesn't happen in Michigan? 
Yes.
    I would say this. We will continue in our efforts to assist 
DNDO in becoming better. There are very good people that have 
been there. Very good people that are there now. Obviously, 
some mistakes were made in the past. You have pointed out, 
given us some avenues of inquiry to continue with. We thank you 
for that.
    Dr. Gowadia, you told us a year ago the ASP program was not 
successful, official cancellation of it. We spent a lot of 
money on it. GAO representative has given us reasons where 
there is valid criticisms of it.
    My concern is: Do you have a suitable follow-up program? 
How far along are we on that? How are we going to avoid making 
the same mistakes we made with the ASP program?
    Ms. Gowadia. Thank you, Chairman Lungren.
    I want to assure you that despite the fact we cancelled the 
ASP program, current port security has not been adversely 
affected. We continue to seek to improve the portal monitoring 
systems we already have in the field, and extend their service 
life. We are also deploying much more depth capability for 
hand-held detection systems with our CVP partners for field 
operations.
    When it comes to lessons learned, we have definitely 
stepped up, based on your oversight and GAO's recommendations, 
process within not just the Department, but within DNDO itself. 
We have a far more rigorous solution development process. We 
have evolved our strategies to looking at surge concepts in 
global architectures. All around, the rigor in our program 
management and execution has certainly turned up----
    Mr. Lungren. I was saying the follow-on program to ASP is 
not necessarily the single technological fix that ASP would, 
but a panoply of approaches using current technology and some 
tweaks to current technology?
    Ms. Gowadia. Exactly, sir. We are not looking at the 
architecture anymore at a single----
    Mr. Lungren. Okay.
    Ms. Gowadia. So we will use this generation and next 
generation for software.
    Mr. Lungren. Okay. Let me ask you about the GNDA, the 
Global Nuclear Detection Architecture. The plan that we 
received from their office calls for the Department to spend 
nearly a billion dollars in the next 5 years on radiation 
detection imaging equipment fixed sites. Per your figures, only 
10 percent of the planned funding will go to acquiring 
equipment for scanning international rail and air cargo. Are 
you satisfied this is the right risk balance?
    Ms. Gowadia. Sir, the imaging systems that are fairly 
expensive actually apply to far more than just the nuclear 
detection mission. International rails and in air cargo we are 
making significant progress, not just from the technical 
perspective, but looking at both modes holistically.
    For example, in air cargo, 70 percent of incoming air cargo 
is express mail or consignment cargo. One hundred percent of 
that is scanned before it comes into the country. So again, we 
are looking across the board at all parts of the Global Nuclear 
Detection Architecture to implement a balanced approach.
    Mr. Lungren. In response to a letter from Chairman King of 
this committee, both DNDO and CVP indicated, ``there is no 
National plan'' for recapitalizing radiation portal monitors. I 
am trying to figure out what that answer means, consistent with 
what you have just told us here?
    Ms. Gowadia. We are looking very carefully with CVP on the 
life extension programs and improving the detection systems 
that are presently in the field. Future strategies will not be 
a one-for-one portal exchange. It may even come to using a mix 
of mobile and agile technologies in conjunction with the 
systems that are out there.
    So we are in the process of doing those studies, sir. I 
think we will have some answers for you--better answers for 
you--as we go through our planning this year.
    Mr. Lungren. Thank you very much.
    The Ranking Member is recognized.
    Ms. Clark. Thank you, Mr. Chairman.
    To Dr. Gowadia, the Global Nuclear Detection Architecture 
Implementation Plan contains details on what we just have spent 
on various activities within the domestic of GNDA. So rather 
than focus on past expenditures, do you plan to have more 
information about future programmatic budgetary needs as you 
update the plan? Wouldn't it be one way to better articulate 
priorities within DNDA?
    Ms. Gowadia. Certainly, ma'am. Actually, the plan is 
forward-looking and it does describe what we will be doing 
across our presently-planned 5-year budget. Now, this was a 
static snapshot. I will give you that. This was our first go-
around. With every year we look through our gap vulnerabilities 
and address and adapt those adversaries. Those mixes will 
change, but we do intend to keep up, keep looking at that plan 
on a regular basis.
    Ms. Clark. You plan to make it much more dynamic going 
forward?
    Ms. Gowadia. Absolutely.
    Ms. Clark. Okay. The GNDA strategic plan was released in 
2010, and DHS-GNDA implementation plan was released in 2012. 
Between these dates, the DHS, through its component agencies, 
continued work on the GNDA by funding and operating those 
programs contributing to the GNDA. How did the release of the 
GNDA strategic plan change the day-to-day operation of 
programs, like the use of RPMs at the U.S. border by CVP?
    Ms. Gowadia. It would be hard for us to make a direct link 
from a high-level USG-wide strategic plan down to the tactical 
operations of, say, a port. However, the roles and 
responsibilities that we signed up to win that strategic plan, 
all of us coming together to agree upon those objectives and 
goals is beginning to drive our planning process moving 
forward. We see that reflected to a certain extent in the 
implementation plan for the first generation. I sincerely hope 
you will we see more of it as we go along.
    Ms. Clark. Then just finally, what do you plan on doing 
with the 13 ASP units? What is the disposition of that?
    Ms. Gowadia. Actually, thank you for giving me the 
opportunity to speak about the ASP. Just to give you a couple 
of things. Last year at this time, Warren--Mr. Stern--was here 
and told you about the cancellation of the ASP program. I want 
to assure you that in July of last year when the last contract 
expired we did not spend any further money with contracts for 
ASP.
    The Secretary did cancel the program and sent a letter to 
Congress in October of last year. What you received last week 
was just the next step in the process where the Acquisition 
Review Board closed out the action item.
    Ms. Clark. Okay.
    Ms. Gowadia. The 13 portals that we have, some of them will 
go to State agencies who are interested in deploying some of 
these along their borders. In fact, I believe New Mexico is 
getting one this month. So we continue to try to learn and 
expand the knowledge we have, data that we can collect.
    Ms. Clark. So then, in transferring the unit it then 
becomes the responsibility of the State for any further 
development with it, any maintenance of it? What is the 
relationship?
    Ms. Gowadia. I do not have all of the details on the MOU. I 
know that they wouldn't develop it further, but I know that we 
will be partnering with them to get a lot of the data and the 
knowledge moving forward.
    Ms. Clark. Thank you very much.
    Mr. Maurer, how did PNNL in its role as a testing site, 
coordinate between CVP and DNDO of these systems?
    Mr. Maurer. Are you talking about during the testing 
process for the original development of ASP?
    Ms. Clark. Correct, sir.
    Mr. Maurer. Correct? The PNNL played a coordination role. 
The specifics varied depending on what level of testing and 
what stage in the testing process you were talking about. I can 
provide additional details for the record, if you would like.
    Ms. Clark. That would be helpful, sir.
    Mr. Chairman, I yield back.
    Mr. Lungren. Thank you.
    The gentleman from Michigan is recognized for his time.
    Then, we have heard from the floor that things are going a 
little more slowly there, so we might have a little more time 
here. But that doesn't mean you should use any more time than 
you need.
    Mr. Walberg. Well, thank you, Mr. Chairman. I am not 
schizophrenic about Michigan State or Michigan U either.
    Representing both institutions in my district, Mr. Maurer, 
I would concur that there is no schizophrenia, that is just 
quality experience.
    Thanks for being here.
    Thanks to the rest of the panel as well.
    Mr. Maurer, the recent GNDA implementation plan states 
performance measures of achieving 100 percent radiation 
scanning of sea cargo, and over 80 percent of rail and air 
cargo within the next 3 years.
    In your opinion, are these appropriate performance goals? 
In your opinion, does the Department have a credible technology 
acquisition plan and cost estimate for achieving these 
performance goals?
    Mr. Maurer. I think those are reasonable performance goals 
the Department has set for itself as the targets for 
accomplishing what they need to do in the future. Particularly 
in the rail environment, that has been one of the more critical 
vulnerabilities, or potential vulnerabilities.
    I know that DHS has taken a number of efforts to try to 
address the rail environment. That one is particularly 
challenging. Some of it gets down to the fact that you just 
can't stop a large freight rail train in its tracks if you get 
a hit, so there is some challenges around that.
    But I think it is important for DHS to have that as a goal 
going forward. In terms of the technology, one of the things 
that we are going to be watching carefully over the next couple 
of years is the results of DHS's on-going work to develop new 
technologies to supplement what it currently has in place. The 
current systems have been the backbone of radiation detection 
capabilities at DHS for a number of years and it has 
significantly enhanced their capabilities.
    However, they really need to take advantage of new 
technologies, particularly to address some of the challenges, 
be detecting shielded radioactive sources as well in the rail 
environment. So we will be watching that carefully and seeing 
what develops over the course of the next year.
    Mr. Walberg. But you are positive in your sense of the 
movement forward, that is it is not simply adequate, but it is 
staying with the curve, ahead of the curve?
    Mr. Maurer. Yes, absolutely. We think that DNDO is on the 
right path. We are encouraged by the recent changes in its 
overall approach. We are encouraged by the fact that they now 
have a strategy and implementation plan in response to our 
recommendations. The key for us, from an oversight perspective, 
is seeing what they do to execute on those plans and 
strategies.
    Mr. Walberg. Okay. Expanding on that, the Department of 
Homeland Security continues to experience difficulty in 
acquiring new technology. We have seen, as you have indicated, 
millions of dollars wasted on failed efforts to develop 
security technologies. The ASP plan already being a prime 
example of that.
    In your opinion, could you expand on I guess some of the 
root problems with the Department's approach to technology 
acquisition?
    Mr. Maurer. Absolutely. Some of its members sort of 
diverted in the past, and DHS is taking measures to address 
some of these problems. But generally speaking, there was a 
tendency a few years ago to push the deployment of new 
technology before it was really ready. In other words, trying 
to make decisions about deployment before it had been 
adequately tested to show that it actually worked in a real-
world environment. That was one significant challenge that DHS 
faced.
    Another challenge that it faced was the Department 
traditionally has had some pretty robust guidance for its 
overall acquisition programs, its policies. When you read them 
on a piece of paper it looks quite sound. They weren't always 
complying and following with those policies. That is something 
that we have some on-going on. We will be issuing a report on 
that relatively soon and talking about where they are now. They 
are making progress, but there is still some ways to go on 
that.
    Then finally, another key challenge they face is that 
oftentimes the portions of DHS that were developing the new 
technologies weren't talking to the actual end-users, the 
eventual end-users, of those systems. So sometimes there were 
some pretty significant disconnects between the folks 
developing the technologies and the people who actual had to 
use them on a day-to-day basis. Once again, DHS has a number of 
plans in place right now to address that problem, and we will 
be watching them carefully to make sure that they carry them 
out.
    Mr. Walberg. Okay.
    Mr. Chairman, unless you would give me the opportunity to 
ask another question, knowing that it is getting close to the 
time ending.
    Mr. Lungren. Well, let me ask Mr. Marino if he has some 
questions. Then if you have some more I think we might have 
some time.
    Mr. Marino from Pennsylvania.
    Mr. Marino. Nothing, sir.
    Mr. Lungren. Well, then I would ask the gentlelady if she 
has further questions?
    Ms. Clark. Sure.
    Just quickly to Dr. Gowadia. The Domestic Nuclear Detection 
Office develops and coordinates, as time would have it, Global 
Nuclear Detection Architecture. Many Federal departments 
participate in implementing it even within DHS, and many DHS 
components participate.
    Given the involvement of the multiple agencies, how does 
DNDO achieve its statutory mission of implementing the domestic 
portion of GNDA?
    Ms. Gowadia. Thank you, Congresswoman Clarke. We actually 
have multiple ways in which we do that. First and foremost, we 
do work closely with our DHS operational components, CDC, Coast 
Guard, TSA, working with them closely to get their images or 
requirements, make sure that those are coupled with our 
rigorous analysis of the architecture and where weaknesses and 
vulnerabilities exist.
    So that is how we start programs. Now, sometimes that is a 
technical program, sometimes it could be a training program, it 
could be a policy issue. That is the Federal end of things. We 
also work with our State and local partners very closely. They 
have been tremendous supporters of this mission and I believe 
all of you commented on their law enforcement skills.
    So I go back to the notion of, again, that security triad. 
How do we bring to bear the technologies that are available 
from our end with law enforcement skills and intelligence 
skills to make sure that as a Federal, State, and local 
enterprise we are doing our best to counter nuclear terrorism?
    Ms. Clark. Just quickly to follow that, is there a metric 
involved?
    Ms. Gowadia. Yes, some metrics are reflecting an annual 
review, their first--the one from last year I believe got us 
some initial metrics. This year's, you will see a little bit. 
We will continue to build on those initial metrics. Also, our 
implementation plan allows us to track progress.
    Ms. Clark. Very well.
    Thank you, Mr. Chairman, I yield back. I know Mr. Walberg 
has a question.
    Mr. Lungren. Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    Mr. Oxford, at the National Laboratory, you need to have 
forward-looking plan to support technology development and 
sustain a world-class technical workforce.
    In your opinion, has the Department shared with you a 
sufficiently detailed plan for its upcoming technology 
acquisition programs?
    Mr. Oxford. Congressman, what we do is work closely with 
places like DNDO. We actually advise them in many cases of 
where some of the gaps and some of the issues are surrounding 
either emerging technologies, or the existing technology.
    We will provide information that contributes now to what 
Dr. Gowadia mentioned as their solution development process, 
informing analysis of alternatives so they can make cost-
effective decisions as new technology comes about. We also get 
directly involved in tests and evaluation of existing or 
emerging technologies.
    For example, we supported an initiative to look at Ondoc 
rail straddle carrier detection systems to find out whether 
that is a feasible solution in the Ondoc rail or the seaport 
environments. So it was a good collaborative effort, allowing 
us not only to support their on-going efforts, but to look into 
the future to look at changes.
    For example, we were directly involved in the helium-3 
alternative discussion based on our background. So there is a 
very robust discussion allowing us to look forward.
    Mr. Walberg. So it is a working relationship where I am to 
understand that it is certainly is them coming and saying, 
``Here is a challenge that we have. These are some things that 
we need developed, processes?'' But also could I conclude that 
you would be suggesting to them concerns, options, and 
capabilities?
    Mr. Oxford. Absolutely. We advise them on components of the 
Global Nuclear Detection Architecture. I would also work 
directly with them on looking, for example, as I mentioned in 
my opening statement, the sustainment of the current RPM 
program. It is not just an operational and maintenance issue. 
There are technical aspects of that that allow us to continue 
that program while DNDO determines what the future life cycle 
of a deployed system might look like.
    Mr. Walberg. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lungren. Dr. Gowadia, about the ASP. That was at least 
presented to us as a program intended to improve performance 
for equipment for things such as false positives in sensitivity 
to shielded nuclear materials. But you folks have presented to 
us that it just didn't work based on the way that we thought it 
did and it was not worth continuing.
    My question is: Why would States want something that is not 
working? Somehow it is going to work better because the State 
is operating it? Or I am really kind of confused on this.
    Ms. Gowadia. Chairman Lungren, as we were going through our 
field validation, we discovered that the jointly-developed 
specifications for the ASP system--I believe CDTMS developed 
this jointly in 2007--no longer reflected accurately the 
operational concerns that CVP faces. So specifically, truck 
speed in secondary inspection exceeds 2 miles an hour, and the 
design specification called for 2 miles an hour.
    In the State and local weigh station environment, for 
example, they are able to control truck speed up to 2 miles an 
hour. So it is a--operational environment and the technology is 
suited for being used there. Again, what we will learn from 
these deployments is the impact of the speeds on the 
performance of the system. That was one of the things we intend 
to gain from our partnership with the States.
    Mr. Lungren. I appreciate that very much.
    I think we only have a few minutes to go to vote, so 
anybody else have a question?
    We want to thank you for making a presentation before us. 
We appreciate very much the work that you are doing and the 
spirit of cooperation with which you have worked with this 
subcommittee.
    Once again, I would like to say that I very much appreciate 
the participation that we had at the classified briefing and 
the number of people that were available to us for answering 
our questions. I hope that both in classified briefings and in 
open hearings we can continue with this dialogue.
    I think it is very important. What you do at DNDO is as 
important as anything that is being done at DHS, and in my 
opinion as important as anything that is being done in the 
Federal Government.
    We want to make sure that we get it right. We will work 
with you to make sure that we get it right to the extent that 
we can participate and that means active oversight. I assure 
you it is not partisan.
    It is a bipartisan commitment and the concerns expressed by 
the Ranking Member are concerns I believe shared by all members 
about some of the past performance, with the recognition that, 
again, good people are working over there attempting to try and 
solve some very, very difficult problems.
    I thank the witnesses for their valuable testimony, and 
Members for their questions. Members of the committee may have 
some additional questions for the witnesses that they would 
submit to you in writing. We would ask that you would respond 
to them in writing.
    We thank you for your service. We thank you for your 
participation.
    The hearing record will be held open for 10 days.
    The subcommittee's hearing is adjourned.
    [Whereupon, at 10:47 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions From Chairman Daniel E. Lungren for Huban A. Gowadia
    Question 1. We have learned that the Department of Energy (DOE) is 
phasing out its Megaports Program, which was deploying new radiation 
detection equipment at foreign ports.
    Does that mean that DHS will have to do even more scanning at our 
domestic ports to make up the difference?
    Question 2. In the fiscal year 2013 Presidential budget request, 
neither DHS nor DOE requested any funds for the deployment of radiation 
portal monitors (RPM's) at domestic and foreign ports.
    Based on this fact, please explain why RPM's are being de-
emphasized in the overall Global Nuclear Detection Architecture (GNDA) 
strategy.
    Answer. In keeping with the U.S. National Strategy for Global 
Supply Chain Security, DHS uses a layered, risk-based approach to cargo 
security that includes a variety of risk mitigation measures, including 
(among others) advance information, automated targeting, and inspection 
and scanning of cargo by personnel or technological means, both at 
domestic ports and in foreign trading partner ports. Radiation Portal 
Monitors (RPMs), whether provided via Megaports at foreign ports or 
deployed domestically, are but one example of this broader security 
system.
    In the layered defense provided by the Global Nuclear Detection 
Architecture (GNDA), there are detection capabilities at various points 
along the pathways that nuclear and radiological materials might follow 
to get to the United States. Cargo scanning is but one part of that 
defensive posture. At this stage in the development and implementation 
of the GNDA, cargo scanning with RPMs is seen as one of a number of 
priorities that, in total, will result in a comprehensive, layered 
defense. This layered defense also includes sustainment of existing 
Megaports sites and equipment abroad, as well as expanding use of 
mobile detection methodologies like Human Portable Radiation Detection 
Systems.
    It should also be noted that the Megaports Program is not being 
phased out. The Megaports Program continues to provide technical 
support to terminal operators and foreign counterparts who undertake 
this work, and is considering potential cost-sharing deployments in the 
out-years. Furthermore, the planned reduction in funding would not 
impact the equipment that has already been deployed in countries around 
the world.
    Question 3a. Figures provided by DNDO indicate that less than 1% of 
the planned acquisition funding for new radiation detection equipment 
over the next 5 years will be dedicated to international rail port of 
entries.
    Why is DNDO not putting more resources on this important aspect of 
the GNDA?
    Question 3b. In testimony, it appears that it is technically 
feasible to monitor rail cargo as it enters the United States, but that 
there are logistical and operational barriers. Can you please describe 
these barriers and what actions need to be taken in order to remove 
these barriers?
    Answer. Radiological and nuclear detection for freight rail cargo 
is technically challenging due to several factors, including those that 
impact logistics and operations for scanning freight trains. These 
include the length of railcars, the required stand-off distances from 
rail tracks for installation of detection equipment to scan trains, 
limited space, attenuation of any radiation through rail cargo and rail 
car structures, the speed of the train passing a detector, and 
legitimate commerce such as fertilizer and ceramics that can set off 
false alarms.
    U.S. Customs and Border Protection (CBP) currently has 26 rail 
imaging systems deployed Nation-wide--18 rail imaging systems are 
deployed on the Northern Border and 8 systems are deployed on the 
Southern Border. These 26 systems provide CBP with the capability to 
examine up to 99% of all arriving rail traffic for the presence of 
contraband. Suspect containers can be further examined using hand-held 
radiation detectors for the presence of radiological and nuclear 
materials. Thus, the current funding profile for international rail 
cargo scanning was determined through a systematic process that 
considered budget levels; maturity and challenges faced by current 
technologies; and the ranking of other priorities within the global 
nuclear detection architecture. Consistent with this approach, DNDO is 
conducting an Analysis of Alternatives (AoA) for International Rail 
that is considering technical, operational, and logistical issues as 
part of the evaluation process. Based on the AoA findings and the DNDO 
Transformational and Applied Research Directorate (TARD) proof of 
concept evaluation, the funding profile for international rail cargo 
will be re-examined in comparison to other priority efforts as the 
results of these studies are reviewed.
    In the technology development area, TARD is planning to explore 
technology concepts to address the rail cargo scanning challenges. TARD 
is participating in the AoA effort and will leverage data gathered 
during this study to assist in the evaluation of technologies. During 
fiscal year 2013, DNDO will conduct a freight rail scanning-related 
proof of concept evaluation for new and developing technologies. Based 
on the AoA findings and relevant technology evaluation, the funding 
profile for international rail cargo scanning can be re-examined.
    Question 4. The Securing the Cities Program (STC) has successfully 
put radiation detector technology in the hands of first responders 
throughout the New York metropolitan area.
    What made the STC acquisition so successful, and how can we apply 
or expand that model to other Departmental acquisitions?
    Answer. The Securing the Cities (STC) program's success stems from 
effective management techniques applied to a focused capability 
development process. STC is not a standard acquisition program, but a 
financial assistance instrument allowing the grant awardee to procure 
the necessary commercial off-the-shelf radiation detection equipment 
and associated support. The program emphasizes a cooperative regional 
structure for radiation detection, unified under one grant recipient 
who enters into sub-awards with other principal area partners. This 
structure allows procurement of standardized equipment and brings all 
regional players together under a common concept of operations. DNDO 
maintains substantial involvement throughout the grant's period of 
performance and all phases of the STC program to ensure State and local 
acquisitions satisfy local requirements, as well as Federal program 
requirements. DNDO's technical assistance supports planning, strategy 
development, equipment acquisition, concepts of operation development, 
standard operating procedures development, training, exercises, and 
assessment activities, as well as sustainment and maintenance analysis.
    The STC methodology has been standardized for replication to other 
high-threat, high-density urban areas to provide for radiation/nuclear 
detection capability. A replication of this program within other 
Department components would require an assessment of program 
fundamentals, such as outcomes (end-state), expectations, and 
cooperative agreements that partner State, local, and Federal resources 
into a coherent effort. A best practice for integrated programs 
leverages existing infrastructure and capabilities while taking 
advantage of current technology and partnerships. Additionally, a 
costs-versus-benefits assessment of the program will be needed to 
understand the overall value of an implemented program.
    Question 5. The Department's nuclear detection strategy cross-cuts 
many U.S. Government and foreign agencies.
    Is there specific coordination aspects that you believe need to be 
improved and are there legislative solutions that may help?
    Answer. The coordination of the development of the Global Nuclear 
Detection Architecture (GNDA) is of great importance. DNDO has seen 
great success in working with our Federal, State, and local partners to 
implement the domestic portion of the GNDA. DNDO's authorities provided 
by the Security and Accountability for Every (SAFE) Port Act of 2006 
(Pub. L. 109-347) and the Implementing Recommendations of the 9/11 
Commission Act of 2007 (Pub. L. 110-53), have underscored the need for 
a cooperative working relationship with interagency and intra-DHS 
partners. Through continued productive engagement with our DHS and 
interagency partners, we are able to frequently discuss our collective 
efforts to build effective nuclear detection architecture to detect and 
report on the illicit trafficking of radiological and nuclear materials 
across our borders.
    DNDO also coordinates with the Departments of Defense, Energy, and 
State, which have primary responsibility for overseas implementation of 
the GNDA, including with foreign countries and on U.S. Government 
international activities.
    Question 6a. The technology providers for DNDO (e.g. industry and 
the National Laboratories) have stated that it is very difficult to 
plan their technology development efforts due to insufficient 
information regarding the Department's acquisition plans.
    Has DNDO shared the GNDA Implementation Plan with its technology 
providers?
    Question 6b. Are there specific actions that DNDO can take in order 
to improve the effectiveness and efficiency of its technology supply 
chain?
    Answer. Consistent with the Federal Acquisition Regulation, the 
Domestic Nuclear Detection Office (DNDO) uses a variety of mechanisms 
to exchange information with industry to improve the understanding of 
Government requirements, including Broad Agency Announcement, Requests 
for Information, Industry Days, Pre-solicitation Notices, Draft Request 
for Proposals/Quotations, and one-on-one meetings with potential 
vendors. DNDO works with its partners to coordinate interagency efforts 
to develop technical nuclear detection capabilities, measure detector 
system performance, ensure effective response to detection alarms, 
integrate USG nuclear forensics efforts, and conduct transformational 
research and development for advanced detection and forensics 
technologies. We collaborate and coordinate efforts through shared 
review of Broad Area Announcements, Requests for Proposals, and through 
interagency portfolio reviews. Additionally, we interact and exchange 
technical information for research and development efforts under a 
Memorandum of Understanding with relevant parties.
    DNDO is currently planning an Industry Day for the first quarter of 
fiscal year 2013, where information about the Government's upcoming 
programs and anticipated programs and acquisitions will be discussed 
and an overview of the GNDA Implementation Plan will be provided. In 
addition to these mechanisms, technology providers may access a wealth 
of publicly available budget and planning information through the 
Office of Management and Budget's website.
    Additionally, in August 2012, DNDO hosted National Laboratory 
Information Day to promote an understanding of the current activities 
and future plans for GNDA program development and analysis and to 
provide an opportunity for APD staff to learn about National Laboratory 
programs and specialized areas of expertise that can support current 
and future GNDA activities. Staff members from seven National 
Laboratories attended the event.
    DNDO has also implemented a Commercial First Initiative to improve 
the effectiveness and efficiency of its technology supply chain. The 
goal of DNDO Commercial First Initiative is to leverage the commercial 
marketplace to maximize the use of commercially available products, to 
engage commercial vendors to focus their internal product development 
efforts to meet the validated needs of DNDO and its stakeholders, and 
to invest in solutions to meet these needs. There are several 
``commercial first'' pathways that a program can follow (as shown in 
the below graphic) depending on the defined gap and the technical 
maturity and commercial availability of potential material solutions 
that may be able to address that gap. These pathways include:
  <bullet> Commercial-Off-The-Shelf (COTS)
  <bullet> Customized COTS
  <bullet> Commercial Development
  <bullet> Government Sponsored Development


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question 7. Given that it has been 1 year since the cancelation of 
the ASP program, and DNDO has still not deployed any first-production 
ASP units in the field, we are now requesting that DNDO please provide 
a monthly report that includes the following information:
  <bullet> Number of ASP units in storage;
  <bullet> Number of ASP units deployed, their location, and the 
        operating agencies;
  <bullet> A full accounting of the $16.1 million that was dedicated 
        for ASP deployments, including amount expended, and amount 
        remaining;
  <bullet> Monthly reports shall continue until all ASP units have been 
        deployed or until all remaining funds have been expended, 
        whichever occurs first.
    Answer. DNDO will provide a monthly report that contains the 
following information:
  <bullet> Number of Advanced Spectroscopic Portal (ASP) units in 
        storage (For Official Use Only/Law Enforcement Sensitive 
        Information Attachment)*
  <bullet> Number of ASP units deployed including the location and 
        operating agency of each system (For Official Use Only/Law 
        Enforcement Sensitive Information Attachment)*
  <bullet> An accounting of the $16,072,560 that was dedicated for ASP 
        deployments, including amount expended and amount remaining.
    The data will be updated and provided on a monthly basis, as 
requested; however, given that the location and operating agency of 
each system constitutes Law Enforcement Sensitive information, this 
data will be appropriately marked and provided separately.*
---------------------------------------------------------------------------
    * Information is retained in committee files.
---------------------------------------------------------------------------
    Please note that the $16,072,560 in Systems Acquisition funds also 
included funds for the Radiation Portal Monitor Program (RPMP). Thus, 
the amount originally dedicated for ASP deployments was $13,251,591 
instead of $16,072,560 (QFR referred to this as $16.1 million). As of 
27 July 2012, there is $6,495,591 available for the deployment of ASPs 
to support data collection. The balance of remaining funds is reflected 
in the table below.

------------------------------------------------------------------------
                                                             Amount in
                       Description                            Dollars
------------------------------------------------------------------------
ASP LRIP Deployment Support.............................    $13,251,591
RPMP Deployment Support.................................      2,570,969
Additional RPMP Deployment Support......................        250,000
      TOTAL for RPMP and ASP Deployment.................     16,072,560
------------------------------------------------------------------------
ASP LRIP Deployment Support.............................      3,251,591
Deobligation 1QFY12.....................................       (600,000)
ASP LRIP Deployment Support.............................     12,651,591
Transferred to RPMP support 4QFY12......................     (7,500,000)
Available for ASP LRIP Deployment Support...............      5,151,591
Expended through 27 July 2012...........................       (656,000)
Remaining as of 27 July 2012............................      4,495,591
------------------------------------------------------------------------

  Questions From Ranking Member Yvette D. Clarke for Huban A. Gowadia
    Question 1. The Domestic Nuclear Detection Office (DNDO) develops 
and coordinates the global nuclear detection architecture (GNDA). Many 
Federal departments participate in implementing it. Even within DHS, 
many DHS components participate,
    Given the involvement of multiple agencies, how does DNDO achieve 
its statutory mission of implementing the domestic portion of the GNDA?
    Question 2. What authorities does DNDO have to ensure participation 
by other DHS components?
    Are these sufficient? If not, how are DHS components held 
accountable to the deadlines presented in the DHS GNDA implementation 
plan?
    Question 3. Who leads GNDA strategy development and implementation 
for the Federal Government?
    How is the performance of programs, agencies, and departments 
participating in the GNDA assessed, and what mechanisms are in place to 
identify duplication, overlap, or synergy among the GNDA programs and 
activities?
    Answer. DNDO achieves its statutory mission of implementing the 
domestic component of the GNDA through its procurement of equipment on 
behalf of its DHS partners, fostering the nuclear and radiological 
detection capabilities of State and local law enforcement, and close 
collaboration with interagency partners.
    DNDO's authorities provided by the Security and Accountability for 
Every (SAFE) Port Act of 2006 (Pub. L. 109-347) and the Implementing 
Recommendations of the 9/11 Commission Act of 2007 (Pub. L. 110-53) 
have led to a cooperative working relationship with interagency and 
intra-DHS partners. DNDO has led the development of an interagency GNDA 
Strategic Plan, a DHS GNDA Implementation Plan, and the joint annual 
review of the GNDA. The joint annual review enables a careful 
comparison of the respective roles that individual constituents play. A 
recommendations section is intended in part to correct any duplication, 
overlap, or lack of synergy that is identified. Improved mechanisms for 
assessment are being explored as part of the annual reporting process.
    These accomplishments and activities have served to advance the 
implementation of the domestic portion of the GNDA, and further 
cooperative work within DHS is being undertaken to track the activities 
and performance measures found in the DHS GNDA Implementation Plan.
    While DNDO has led the GNDA strategy development for the Federal 
Government, we are cognizant of the extensive expertise and efforts on 
behalf of the GNDA by its interagency partners. For this reason, 
products such as the GNDA Strategic Plan and GNDA Joint Annual 
Interagency Review were developed collaboratively and work continues to 
further empower interagency partners in shaping strategy.
    In addition, coordination mechanisms such as the GNDA Sub-
Interagency Policy Committee (IPC) process run by the National Security 
Staff within the White House and the Nuclear Terrorism Working Group 
(NTWG) within DHS enable identification of potential duplication and 
overlap, as well as synergy among programs.
    Question 4a. There have been many Congressionally-requested GAO and 
National Academy of Sciences reports that have identified the failures 
in the use, testing, evaluation, procurement, and deployment of the 
ASP, and finally the Department has terminated the program. How do you 
intend to move forward with the remaining ASP's and how much money do 
you anticipate spending on the existing devices that are not certified 
by the Secretary?
    What steps has DHS undertaken to implement the lessons learned from 
the failed ASP procurement?
    Question 4b. How have the procurement, testing, and evaluation of 
nuclear detection systems changed in response to Congressional 
oversight and GAO reports?
    Answer. The remaining $6,495,591 will be used for ASP deployments, 
decommissioning (field validation and test sites), and stream-of-
commerce spectroscopic data collection in support of requirements 
development for future systems. DNDO has already deployed two systems 
at State sites, and is planning to deploy another three systems at 
State sites, as well as one system to CBP at a port of entry (POE) for 
non-operational data collection, for a total of six systems. The 
remaining systems will be given to National Labs, academia, etc, or 
will be disposed of.
    DHS has implemented numerous steps to improve its acquisition 
processes, including but not limited to the implementation of DHS 
Acquisition Management Directive 102-01 (MD 102-01). In support of MD 
102-01, DNDO has implemented a Solution Development Process, including 
a Governance Review Board, which ensures guidance in MD 102-01 is 
properly met. In addition, DNDO captured and documented lessons learned 
from the ASP program in a Lessons Learned database that is available to 
program managers in DNDO and is discussed during program quarterly 
reviews. The aforementioned documents and several other processes have 
directly improved DHS procurement, testing, and evaluation of nuclear 
detection systems. The challenges faced by the ASP program also 
underscore the need for close coordination with operational partners to 
determine technical requirements and operational requirements in the 
field. MD 102-01 and DNDO's internal implementation of improved 
acquisition and program management facilitate close coordination 
between technology developers and end-users.
    In response to the National Academy of Sciences Report, DNDO is 
expanding our developmental approach to include a more robust modeling 
and simulation of the environment where that equipment will be deployed 
for radiation detection in support of the global nuclear detection 
architecture. The set of possible combinations of threats, cargo, and 
environments (i.e., nuisance radiation signatures, shielding 
attenuations, and background variation) is so large and diverse that 
DNDO is incorporating a more thorough analytical basis for 
understanding the performance of its detectors systems against 
different configurations and in different operational environments.
    In response to Congressional oversight and Government 
Accountability Office reports for test and evaluation of nuclear 
detection systems, DNDO has modified DNDO Operating Instruction 1 to 
increase the formality of test event planning by defining roles and 
responsibilities and implementing a structured Milestone Review Process 
with entrance and exit criteria that is reviewed by the senior 
management of DNDO. DNDO has also increased its use of independent 
verification and validation, and has developed a Test Observation 
Reporting System to capture any deviations from the Test Plan.
    Finally, DNDO has improved its test capabilities through the 
manufacture and acquisition of specially-designed sources and ancillary 
test support equipment to ensure accurate and reproducible test 
conditions.
    Question 5a. In 2009, Secretary Napolitano testified that ``in 
order to implement the 100% scanning requirement of foreign ship cargo 
entering the United States by the 2012 deadline, DHS would need 
significant resources for greater manpower and technology, technologies 
that do not currently exist, and the redesign of many ports. These are 
all prohibitive challenges that will require the Department to seek the 
time extensions authorized by law.''
    What efforts has DHS undertaken since that time to overcome these 
challenges? How successful have those efforts been?
    Answer. U.S. Customs and Border Protection (CBP) has focused 
substantial attention and resources over the last several years on 
securing goods being transported within maritime containers. As a 
result, we have strengthened our multi-layered security measures, more 
effectively securing and facilitating the large volume of goods 
arriving in the United States each year. By leveraging programs such as 
the Container Security Initiative (CSI) for the integrated scanning of 
high-risk containers, the Customs-Trade Partnership Against Terrorism 
(C-TPAT), and the Importer Security Filing (often called ``10+2'') for 
the advance collection of manifest and import data to enhance 
targeting, we are more secure than ever before. Our layered and risk-
based approach provides that, at a minimum, 100 percent of high-risk 
containers are examined through a number of measures, including 
screening, scanning, physical inspection, or resolution by foreign 
authorities. In addition, we have strengthened our automated targeting 
systems and enhanced the quality and timeliness of the commercial data 
upon which those systems rely. CBP continues to work collaboratively 
with industry, our Federal partners, and the international community to 
expand these programs and our capability to detect, analyze, and report 
on nuclear and radiological materials that are outside of regulatory 
control.
    Question 5b. Clearly DHS has planned for some time to extend the 
July 2012 deadline. The law permits additional extensions in 2-year 
increments.
    Question 5c. Does DHS expect to extend the deadline again in 2014? 
If so, when does DHS expect to be able to meet the 100% scanning 
requirement?
    Answer. DHS has not made any decision at this time regarding a 
decision to extend the deadline in 2014. DHS will continue to work with 
Congress to refine its approach and ensure that scanning remains a key 
layer of the suite of security systems.
    Question 5d. In allowing for extensions of the 100% scanning 
deadline, the law requires the Secretary to certify that at least two 
of six specified conditions exist. A lack of resources for implementing 
the requirement is not one of the six specified conditions.
    Which of the six conditions currently exist?
    Answer. On May 2, 2012 DHS Secretary Napolitano certified that the 
following conditions existed to allow for the extension:
  <bullet> Use of systems that are available to scan containers will 
        have a significant and negative impact on trade capacity and 
        the flow of cargo.
  <bullet> Systems to scan containers cannot be purchased, deployed, or 
        operated at ports overseas because ports do not have the 
        physical characteristics to install such a system.
    Question 5e. Which of the six conditions does DHS expect to resolve 
within the next 2 years?
    Answer. It is unclear which conditions can be resolved in the next 
2 years due to a variety of challenges and the uniqueness of each 
foreign port and the cooperation with foreign governments. However, DHS 
recognizes the need to proceed with container security programs in a 
responsible, practical manner that maximizes the security of maritime 
cargo, facilitates trade, and enhances global supply chain resilience. 
DHS plans to work within and across the U.S. Government to effectively 
develop technology, enhance risk management processes, and implement a 
robust layered enforcement strategy for screening cargo. Through the 
Department's Science and Technology Directorate and Domestic Nuclear 
Detection Office, DHS continues to monitor technology advancement in 
the private sector, academia, and the interagency to address the 
challenges of scanning maritime cargo. Through existing and new efforts 
on domestic and international fronts, DHS--along with the World Customs 
Organization, the International Maritime Organization, the 
International Civil Aviation Organization, and other partners--is 
striving to improve the security of operations, raise international 
standards, and foster systems that secure the global supply chain.
    Question 5f. Considering that resource availability is not an 
allowable reason for extending the deadline, how does DHS prioritize 
funding for this effort relative to other programs?
    Answer. To date, CBP and the Department of Energy have spent 
approximately $120 million on efforts to implement the 100 percent 
scanning mandate. The Government Accountability Office has testified 
that the total cost to fully implement the 100 percent scanning mandate 
in all ports that ship maritime cargo to the United States would be 
approximately $20 billion.
    The International Cargo Screening (ICS) PPA prioritizes funding for 
CBP to continue operations for the Container Security Initiative (CSI) 
in keeping with DHS policy of a robust risk-based approach to cargo 
security. CSI is a key component to DHS's layered security approach to 
cargo security. The ICS PPA also allows for sufficient funding for the 
Secure Freight Initiative (SFI) to continue 100 percent scanning 
operations in Qasim, Pakistan.
    Funding continues to be a priority for other key components of 
DHS's layered security strategy such as Customs-Trade Partnership 
Against Terrorism, the Importer Security Filing, and enhancements to 
the Automated Targeting System. These programs, in conjunction with CSI 
and SFI, comprise DHS's layered security strategy.
    Question From Ranking Member Yvette D. Clarke for Vayl S. Oxford
    Question. What work is PNNL currently doing that might improve the 
performance of existing RPMs? How would you characterize the importance 
and potential of that work?
    Answer. PNNL is engaged in several programs that are focused on 
improving the performance of radiation portal monitors (RPMs) as well 
as extending RPM life in the field.
    The performance of an RPM is dictated by its ability to 
simultaneously detect the threat (probability of detection) and to be 
insensitive to nuisance and false alarms. These sensor attributes are 
measured as the probability of detection (PD) and the nuisance and 
false alarm probability (NFAP). PNNL is currently funded to develop and 
evaluate a number of new algorithmic approaches that have the potential 
to improve both of these parameters of performance for current 
generation RPMs. This research is focused on making full use of all the 
information generated by current generation RPM technology and applying 
our experience and knowledge from 10 years of deployment support and 
approximately 750 million screening events. These projects specifically 
address optimization of the currently deployed commercial algorithm to 
make best use of fielded capabilities, the evaluation of a novel 
algorithmic approach that categorizes screening events (radiation 
spectra) as ``threats'' or ``benign,'' and an algorithm that accounts 
for the changing radiation environments in real-world operations. 
Combined, these efforts will likely make modest improvements in the 
probability of threat detection, but offer the potential to have 
significant operational impact through the reduction of nuisance and 
false alarms, which drive the operational cost for these systems.
    In addition to improving the detection performance of the systems, 
PNNL has focused on addressing the system life-cycle issues that reduce 
performance of RPM systems over time and require the ultimate 
replacement of components and whole systems. Specifically, the 
radiation-sensitive detector material poly-vinyl toluene (PVT), which 
is the backbone of almost all deployed RPM systems worldwide, has a 
limited life that is not well understood. This research has focused on 
understanding the reasons for the degradation of PVT over time and to 
get at root cause so that mitigation strategies can be put in place. As 
the Nation's deployed systems age, this will become a critical issue. 
There are other limited-lifetime components of the deployed systems, 
and PNNL has been asked to evaluate the issue to inform a United States 
Government strategy to sustain the existing deployed system network to 
the degree that it continues to meet the operational needs of the 
nuclear threat detection community.

                                 <all>

</pre></body></html>
